<html>
<title> - TOO MUCH FOR TOO LITTLE: FINDING THE COST-RISK BALANCE FOR PROTECTING FEDERAL EMPLOYEES IN LEASED FACILITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
       TOO MUCH FOR TOO LITTLE: FINDING THE COST-RISK BALANCE FOR
           PROTECTING FEDERAL EMPLOYEES IN LEASED FACILITIES

=======================================================================

                               (111-114)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 20, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
56-587                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               VACANCY
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
RUSS CARNAHAN, Missouri              SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
MICHAEL A. ARCURI, New York          MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
DONNA F. EDWARDS, Maryland           ANH ``JOSEPH'' CAO, Louisiana
THOMAS S. P. PERRIELLO, Virginia,    PETE OLSON, Texas
Vice Chair
HANK JOHNSON, Georgia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Armstrong, Sue, Deputy Assistant Secretary for Infrastructure 
  Protection, Department of Homeland Security....................    18
Hinman, Eve, President, Hinman Consulting........................    72
McAndrew, Michael, Director, Facility Investment & Management, 
  Office of the Deputy Under Secretary of Defense, Installations 
  and Environment, Department of Defense.........................    18
McAvey, Maureen, Senior Vice President, Urban Land Institute.....    72
Moran, Hon. Jim, a Representative in Congress from the State of 
  Virginia.......................................................     5
Morris, Samuel (Chip), Public Buildings Service Assistant 
  Commissioner, General Services Administration..................    18
Nadel, Barbara, Principal, Barbara Nadel Architect...............    72

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Edwards, Hon. Donna F., of Maryland..............................    83
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    85
Oberstar, Hon. James L., of Minnesota............................    88

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Armstrong, Sue...................................................    90
Hinman, Eve......................................................    98
McAvey, Maureen..................................................   105
Moran, Hon. Jim..................................................   110
Morris, Samuel (Chip)............................................   112
Nadel, Barbara...................................................   120

                       SUBMISSIONS FOR THE RECORD

Armstrong, Sue, Deputy Assistant Secretary for Infrastructure 
  Protection, Department of Homeland Security, response to 
  request for information from the Subcommittee..................    94
Edwards, Hon. Donna F., a Representative in Congress from the 
  State of Maryland, ``GSA Leasing in the Greater Washington 
  Metropolitan Region,'' a report by the National Center for 
  Smart Growth Research and Education and the Master's of Real 
  Estate Development Program at the University of Maryland.......    40
McAndrew, Michael, Director, Facility Investment & Management, 
  Office of the Deputy Under Secretary of Defense, Installations 
  and Environment, Department of Defense, response to request for 
  information from the Subcommittee..............................   101
Morris, Samuel (Chip), Public Buildings Service Assistant 
  Commissioner, General Services Administration, response to 
  request for information from the Subcommittee..................   116

[GRAPHIC] [TIFF OMITTED] T6587.001

[GRAPHIC] [TIFF OMITTED] T6587.002

[GRAPHIC] [TIFF OMITTED] T6587.003

[GRAPHIC] [TIFF OMITTED] T6587.004

[GRAPHIC] [TIFF OMITTED] T6587.005



 TOO MUCH FOR TOO LITTLE: FINDING THE COST-RISK BALANCE FOR PROTECTING 
                 FEDERAL EMPLOYEES IN LEASED FACILITIES

                              ----------                              


                         Thursday, May 20, 2010

                  House of Representatives,
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:42 p.m., in 
room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chairman of the Subcommittee] presiding.
    Ms. Norton. The hearing will be in order.
    Good afternoon, and welcome to today's hearing on the cost 
and other implications of applying the Department of Defense's 
antiterrorism force protection standards to the General 
Services Administration's leased space procurements.
    There are only three security standards for federally owned 
and leased buildings: one, the State Department's Bureau of 
Overseas Building Operations, or UBO, standard, which applies 
to all buildings at U.S. diplomatic and consular posts; two, 
the Interagency Security Criteria, or ISC, standard, which 
applies to all buildings in the United States occupied by non-
military Federal employees; and, three, the DOD's Unified 
Facilities Criteria standard, which applies to all buildings on 
both foreign and U.S. soil occupied by DOD employees, including 
civilian employees, regardless of the nature of the work 
performed or security threats.
    The GSA is the Federal Government's central domestic 
building management agency and owns or leases over 350 million 
square feet of general purpose space throughout the country 
used by various Federal agencies, including the DOD.
    The GSA generally follows the ISC standards for lease 
procurements. However, for DOD leases, the GSA is required, it 
believes, to adhere to DOD's UFC standards, apparently imposed 
by the DOD on its own, unrelated to a specific authorization 
statute.
    DOD's UFC standard is considerably more stringent than the 
ISC standard for all other Federal employees and is 
significantly more costly to taxpayers.
    For example, the ISC standard, until recently, required 
uniform setbacks of 50 feet, but now it permits factors such as 
a building's resiliency to be taken into account when 
determining setbacks. In contrast, the DOD's UFC standard still 
requires a minimum setback of 148 feet, almost three times as 
much.
    Further, while the ISC standard allows for parking beneath 
federally occupied space, DOD's UFC standards eliminates 
parking beneath occupied structures, and whatever parking is 
permitted must be set back at least 82 feet from the building.
    To take a current example to amplify these points, GSA 
currently has requested that the Subcommittee authorize a lease 
prospectus for the colocation of DOD medical headquarters 
command in northern Virginia for 751,000 square feet of space. 
These are important personnel, but may have no more need for 
secure facilities that meet DOD's UFC standards than other 
Federal civilian personnel. However, the GSA's prospectus makes 
clear that it intends to lease space which complies with the 
DOD's UFC standard.
    Accordingly, today this Subcommittee will examine the 
implications not merely for the particular case of the Medical 
Command, but more generally for whether there is sufficient 
justification for requiring GSA to follow two different sets of 
securities standards, one for general purpose office lease 
space for DOD civilian employees and another for all other 
Federal civilian employees, without taking into account risks, 
threats, and cost-benefit analysis.
    There are significant financial, land use, and societal 
implications that must be explored if GSA continues to use the 
DOD's UFC standards in future procurements.
    The Subcommittee is concerned that the application of two 
disparate security standards will give rise to two distinctly 
different classes of civilian Federal employees who do similar 
work: DOD employees and all others.
    As a policy matter, we will require justification for why 
not merely some, but all, each and every DOD employee, 
including those engaged in purely administrative or back-office 
functions, need a higher level of protection than, for example, 
the U.S. District Court judges or the Nation's U.S. attorneys 
who may work on cases involving terrorism, drug syndicates, 
organized crime, and criminal gang activity, all at the same 
time, under the same roof.
    The Subcommittee also notes that DOD's UFC setback standard 
of 148 feet is even greater than the 100-foot setback standard 
used by the Department of State's OBO standard for U.S. 
embassies where terrorist threats have, in fact, occurred or 
been well-documented. The DOD's UFC standards may be 
appropriate for military installations, but it is not clear 
that they are appropriate for all DOD functions, particularly 
those for which commercial space is considered by DOD as 
suitable for occupation purposes.
    The cost to taxpayers of the level of protection sought by 
DOD's UFC standard is significant. For the colocation of DOD 
medical headquarters command, the annual leasing cost may 
quadruple, from approximately $7 million per year to over $30 
million per year. The additional cost to taxpayers over the 15-
year term of the proposed lease amounts to $57 million in 
today's dollars. The cost is directly attributable to the DOD's 
UFC standards inasmuch as noncompliance at the present location 
with these standards is a key driver for the new lease location 
in the first place.
    These extra costs, particularly given the economic 
conditions posed by a severe recession and an unacceptable 
Federal deficit, appear inconsistent with military cost 
controls sought not only by Members of Congress but also by 
Defense Secretary Robert Gates, who, at this moment, is seeking 
to convert as much as 2 to 3 percent of military spending from 
tail to tooth--military speak for converting support services 
to combat forces.
    In a speech delivered May 8th, Secretary Gates said--and I 
am quoting him now--``Military spending on things large and 
small can and should expect closer, harsher scrutiny,'' end 
quote. This Subcommittee agrees. And, through this hearing and 
in our future work, we intend to bring scrutiny to bear on the 
application of DOD's UFC standards to DOD's civilian 
occupancies.
    We are particularly concerned that the DOD's UFC standard, 
if left unchallenged, will lead to a series of urban fortresses 
for Federal occupancies, an idea that is inimicable to an open, 
democratic society, even with appropriate security.
    I am a Member of the Homeland Security Committee, and I 
fully appreciate the necessity that all government facilities 
be secure. I appreciate it all the more because I represent the 
Nation's capital. But security features and procedures must be 
calibrated to threat and risk analyses that also account for 
their effect on ordinary access.
    Importantly, security standards cannot be promulgated 
without regard to cost. Under both the ISC standard and the 
DOD's UFC standard, there has been essentially no assessment of 
the probability of threats so that threats, on a risk-adjusted 
basis, can be compared to the cost of the countermeasures 
designed to deter them. In the absence of methodological rigor, 
there is little to contain spending or to enhance security, for 
that matter.
    The continued uniform application of DOD's UFC standards to 
all DOD office facilities in the United States poses the risk 
of redlining most urban and suburban settings in close 
proximity to public transportation, where most space for 
Federal employees is located today. Moreover, if DOD's UFC 
standard forces DOD civilian employees to abandon public 
transportation, the standard will have the unintended 
consequence of forcing more commuters onto already-strained 
roads, with all of the consequences to air pollution, climate 
change, and all the rest that is familiar to us all. This, too, 
is antithetical to the longstanding, bipartisan mass-transit 
goals of Congress.
    The regulations also appear at odds with President Obama's 
March 4th, 2009, Presidential Memorandum published in the 
Federal Register urging the in-sourcing of Federal employees 
who will be returning from their present status as contract 
employees performing inherently governmental work to government 
service. This Committee will be tasked with finding facilities 
for these employees now housed by contractors. Many of them 
will be DOD civilian employees.
    We are pleased to welcome witnesses from DOD and the 
Department of Homeland Security to testify concerning their 
respective building standards and a witness from GSA to discuss 
how it procures space in light of these standards. We also 
welcome our private-sector witnesses, who are not only expert 
in the field of physical security but also in engineering, 
architecture, and land use economics.
    The Subcommittee looks forward to the testimony from all of 
these witnesses.
    I am very pleased now to welcome comments from our Ranking 
Member for the day. Mr. Diaz-Balart is ill in Florida and has 
not been able to be in session with the Congress this week. But 
we are pleased to be joined by a Member of the Subcommittee, 
Mr. Cao, for opening remarks as Ranking Member.
    Mr. Cao. Thank you very much, Madam Chair. And I want to 
thank you for holding this important hearing today on building 
security.
    In a previous hearing, we had focused on oversight of the 
Federal Protective Service and its contract guard program. 
Today we are examining physical security and, more 
specifically, the standards used for leased facilities.
    As we all know, Federal buildings are a proven target for 
terrorists and others who wish to do us harm. In fact, the 
Interagency Security Committee, which provides guidance for 
security for Federal buildings, was established by Executive 
order in the wake of the Oklahoma City bombing.
    To ensure we adequately protect Federal workers and 
visitors to our Federal facilities, we must set security 
standards that are risk-based and effective. Often, this means 
that we should not have cookie-cutter approaches to physical 
security, because not every building is the same. Applying a 
one-size-fits-all standard may do little to address actual risk 
and, at the same time, may significantly increase cost to the 
taxpayer.
    For example, earlier this month, it was reported that GSA 
placed a 127,000-square-foot building in Bethesda up for sale 
because it did not meet security setback requirements. As we 
know, this is not the best time to sell real estate. And this 
location sits in a prime location for Federal workers, close to 
a Metro. It is unclear how an appropriate security assessment 
was completed for the specific risk to this building without 
knowing who the likely Federal tenant would have been and what 
other measures could have been taken to address any risk.
    In most metropolitan areas, Federal agencies, whether in 
owned or leased space, often must make assessments that take 
into account the limitations on space. And we have seen 
tailored alternatives to setbacks in many urban areas around 
the country. As the new ISC standard suggests, each building 
should be assessed to determine its risk, and various solutions 
should be considered to address these specific risks. Doing 
this will improve security and ensure tax dollars are used 
effectively.
    Finally, today, it will be important for us to understand 
the standards used by the DOD. This Committee has received a 
lease prospectus for DOD medical headquarters command in 
northern Virginia, which requires 751,000 square feet of space. 
Concerns have been raised as to whether separate standards for 
DOD facilities unnecessarily limits the sites and locations 
available to accommodate DOD needs and increases the costs of 
the project.
    Being able to evaluate the ISC standards and DOD standards 
will assist this Committee in better evaluating proposals and 
costs for new space. I hope today we can hear from the 
witnesses on these and other issues.
    Thank you. And I yield back.
    Ms. Norton. Thank you very much, Mr. Cao.
    We are pleased to be joined by a Member of Congress from 
this region who knows these issues, among many others, because 
Jim Moran not only serves on three Subcommittees of the 
Appropriations Committee, he serves on the Defense Subcommittee 
in particular.
    Mr. Moran, we are pleased to receive any testimony you may 
choose to offer.

 STATEMENT OF THE HON. JIM MORAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Moran. Well, Madam Chairwoman, thank you.
    Although your complete statement said everything that I 
want to say too, I will proceed nevertheless and say it, as 
well. But I appreciate your opening comments, as I do of Mr. 
Cao's. Clearly, you understand the importance of this issue. 
And I want to welcome Ms. Edwards and Mr. Johnson, as well. And 
I thank your excellent staff.
    As I say, you expressed this issue better than I can, Madam 
Chairwoman, but now we need to address it. And I will identify 
the same reasons.
    My congressional district is a large urban area that not 
only leases office space to some of this Nation's largest 
corporations, but it also leases millions of square feet to the 
Federal Government, at least those that remain after you get 
first dibs, Madam Chairwoman.
    That wasn't in my prepared statement.
    Ms. Norton. It is all competitive, Mr. Moran.
    Mr. Moran. But with that in mind, I would like to express 
my very serious concern over the Department of Defense's 
antiterrorism and force protection standards.
    First, I am much concerned that DOD has, thus far, been 
permitted to establish separate security standards from all 
other Federal agencies. It is the responsibility and the 
authority of the General Services Administration to establish 
security standards for buildings housing Federal employees.
    DOD's standards usurp GSA's authority, which not only 
creates uncertainty in Federal contracting with property 
owners, but it is implementing a policy that suggests that DOD 
employees deserve a higher level of protection than other 
Federal workers. As the Chairwoman articulated, there are so 
many other Federal workers that deserve at least as much 
comparable protection.
    For some iconic DOD facilities, there is probably 
sufficient rationale to implement these standards. The Pentagon 
would be such an example. But for many lesser-known defense 
agencies and components that are housed in private buildings, 
these stringent security standards above and beyond those 
established by GSA simply don't make sense. I don't think that 
terrorists are harboring any particular hatred toward TRADOC or 
toward any one of the other dozens of inscrutable acronyms that 
identify the multiple DOD agencies that are housed in these 
Federal buildings.
    Secondly, the DOD standards raise the costs that the 
Federal Government must pay for DOD leases. One particularly 
onerous requirement of such standards is a minimum standoff 
distance of 82 feet from either a parking lot or a roadway. In 
an urban area, this minimum standoff distance simply 
disqualifies a vast number of buildings from housing DOD 
employees. And it makes it almost economically impossible to 
afford to purchase this kind of setback space at a public 
transit hub that is zoned for high density, because that land 
is simply too valuable to devote to this substantial setback 
from the sidewalk or from the transit station or whatever. And, 
yet, that means that it runs counter to any sensible smart-
growth urban planning.
    As a result, competition is limited, which ultimately 
forces the government to pay a much higher rate to house DOD 
employees in privately owned buildings. As the title of this 
hearing states, it is unclear what net benefit the government 
receives from DOD standards versus the additional costs that 
the government must pay.
    I think it is important to note that the Defense Department 
often circumvents its own rules through a loophole that waives 
its standards if less than 25 percent of the building's 
occupants are DOD employees. The 25 percent rule prevents DOD 
components and agencies, though, from expanding within a given 
building. And it actually forces the Department to rent more 
leased space at higher rates across multiple buildings instead 
of consolidating its employees in fewer buildings, which was 
the intent of the BRAC move in the first place. It is 
irrational and expensively counterproductive. So, Madam 
Chairwoman, surely abiding by GSA's security standards makes 
much more sense.
    And the third reason is that DOD's security standards 
prevent local governments in Washington, D.C., and northern 
Virginia and in other metropolitan urban areas from 
implementing mixed-use development. In our districts, mixed-use 
development has proven to have ecological, environmental, and 
transportation-related benefits that translate into greater 
economic activity and a higher quality of life for residents as 
well as workers. By prohibiting mixed-use development, which 
these security standards do, it stifles innovation and public 
planning, which ultimately costs localities lost economic 
output.
    So, in summation, DOD's security standards undermine GSA's 
authority; they cost the Federal Government in much higher 
additional lease payments without delivering sufficient 
benefit; and they run counter to smart-growth urban planning 
and development.
    I think those are compelling reasons. And, as a result, I 
want to thank you again for having this hearing and for so 
fully understanding how important it is. And thank you for your 
leadership and that of the Subcommittee.
    Thank you, Madam Chairwoman.
    Ms. Norton. Thank you, Mr. Moran.
    Before I begin to ask you just a few questions, I neglected 
to ask the other Members if perhaps they had any opening 
remarks.
    First, Ms. Edwards?
    Ms. Edwards. Thank you, Madam Chairwoman. I will try to 
slide a little closer here.
    Mr. Moran. She has a bad leg there. So, those in the 
audience don't realize the physical problem she has.
    Ms. Norton. And I didn't even realize it. Of all people to 
be in a wheelchair, even temporarily, Donna Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman. And this is what 
happens when you meet a marble stairwell and a wall and the 
wall wins.
    I want to thank you, Madam Chairwoman, for holding this 
hearing.
    And, Mr. Moran, thanks so much for your testimony.
    I hope the Committee understands that the issue of GSA 
leasing and consistent and clear standards that are applied 
across the board is a really important issue that is very 
personal for the constituents, the people of the Fourth 
Congressional District.
    I represent Prince George's and Montgomery Counties, 
located here right outside of Washington, D.C., in the national 
capital region. Unfortunately, these counties receive far less 
consideration from Federal leases than any other surrounding 
areas. And point in fact, that both of these counties in the 
State of Maryland really do employ some of the highest 
opportunities for transit-oriented development that is 
ecologically friendly, environmentally friendly, and makes 
sense in an urban area. And so, what we are considering here 
today is the consistency of those standards across the board so 
that all of our jurisdictions, and particularly Prince George's 
and Montgomery County, are as competitive.
    I want to note--and the Committee has heard this testimony 
before--but Prince George's County receives, actually, the 
fewest number of higher-class lease space compared to any other 
jurisdiction in the region when it comes to GSA property 
leasing. A couple of years ago, the University of Maryland did 
a study that actually showed that only 10.1 percent of GSA's 
leases are within Prince George's County, in this county's 
borders, in this region. Moreover, those leases represent only 
7.6 percent of the square feet leased through GSA in the region 
and only 4.1 percent of the total rent.
    What does this mean? Well, it is striking because it means 
that only 3.9 percent of the office space leased by GSA in this 
region is in Prince George's County.
    The University of Maryland study goes on to say that, 
``However,'' and I quote, ``in Prince George's County, 
warehouses make up 49.4 percent of the GSA's leases.''
    And so I appreciate the study and refer to it often, but 
Prince George's County didn't need a study to confirm that it 
is being overlooked. And so this question of balancing out what 
the standards are and applying them across the board and making 
sure that they are uniform is really about making sure that, in 
this region and other regions, that economic development can 
take place throughout the region--positive economic 
development.
    And I have spent the last 2 years only since I have been in 
office trying to understand why this disparity could be the 
case. Prince George's County has a multiple of Metro stops. In 
fact, the county has the highest number, the greatest number of 
Metro stops in the region, but has the fewest amount of leased 
space by GSA. And so, one has to wonder why this is. It is also 
the home, our county is, in Prince George's County, to 25.7 
percent of the region's Federal workforce, but again, a 
disparity in lease space.
    And when it comes to looking at these leases and looking at 
the changes in prospectus, particularly when it comes to things 
like safety considerations, even things like ceiling heights, 
one has to ask, what is going on here, and why is this 
disparity true? And I have tried to get these answers from GSA, 
and, to date, they have simply not been satisfactory.
    I hope I am wrong, and I would love for GSA to convince me 
otherwise, but the only answer that seems to make sense to me 
and to the people in our congressional district is that Prince 
George's County is being overlooked on purpose. Every time a 
new situation comes up and GSA has a reason to not lease in 
Prince George's County or a reason to put out a prospectus in 
such a way that it seems to favor one jurisdiction over 
another, it means that Prince George's County is left out. And 
this is really unacceptable in the capital region.
    And so one of the issues that we are going to hear about 
today is setback standards. The setback standard is really 
important because it is important to considering the protection 
of not just part of our workforce, not just the DOD part of our 
workforce, but all of our workforce. And the reason that it is 
important to have a consistent standard that is applied across 
the board and that GSA applies is because, if every agency were 
allowed to create their own standard, then what would be the 
point? And the Federal Government, the taxpayer would, in fact, 
be spending so much more money than we need to on this leased 
space.
    And so, if it is a safety issue on a level 4 building, and 
that that can be waived, then what does that say about the 
safety and protection of our entire workforce? Why should only 
new buildings have that standard?
    So I look forward to hearing from the representatives of 
GSA and DHS on not just the setback standard requirements but 
the reasons for other changes that occur once a prospectus is 
sent out. And it has to be a good explanation. And, at long 
last, if this explanation can't be made in policy and in 
practice, then I think it has to be changed in law.
    And so I want to thank you, Chairwoman Norton. I know we 
have had numerous conversations about this. And I think the 
time for talk is over. Prince George's County, Montgomery 
County, this part of the region has waited way too long for an 
explanation that makes sense.
    Thank you very much.
    Ms. Norton. Well, thank you, Ms. Edwards.
    And before I ask Mr. Johnson, a new Member of our 
Subcommittee, if he has any remarks before asking Mr. Moran 
just a few questions, I do want to say that Ms. Edwards is 
talking about--she doesn't call it that; I will call it for 
her, because we have done some investigations--she is talking 
about documented discrimination.
    Ms. Edwards, we found some of that discrimination right 
here in the District of Columbia, not against parts of the 
District of Columbia that are poor or off-center, but against 
parts of the District of Columbia close to the Capitol, simply 
because they are not downtown on K Street.
    The reason for this discrimination, we have found, is GSA 
caving into agency preferences. That is inimicable to the 
mission of GSA, and we have been at pains to correct it, 
including a standard that required GSA to come back to the 
Committee before changing the terms of the prospectus, only to 
find that, in the case of one Prince George's County facility 
that was in fact competing, GSA did not come back because they 
interpreted it to mean that somehow they had to change the face 
prospectus. They simply amended the prospectus at the aegis of 
the agency so as to essentially make it impossible for Prince 
George's County to compete.
    Anti-competitiveness is one thing this Subcommittee will 
not stand, even with respect to my own district, where many 
agencies prefer to be because it is the Nation's capital. We 
sanction only competitiveness, and Members cannot get into the 
competitive process. But in the investigation of the particular 
Prince George's County matter, we found discrimination so bad 
that they had to withdraw the RFP, the request for proposal.
    So Ms. Edwards is not just whistling Dixie, as they say. 
And it is important to understand how important it is that 
these matters be rationally explained. If you can't explain it 
in our system, you are already in trouble.
    I am going to ask Mr. Johnson whether he has any opening 
comments. And I am pleased to welcome him to this Subcommittee. 
He is not a new Member of Congress, but he is new to this 
Subcommittee, and we are very pleased to have him as a Member.
    Mr. Johnson. Thank you, Madam Chairwoman. And thank you for 
hosting this important issue in this Committee.
    Today I drank a lot of hot tea and iced tea, getting ready 
for this hearing. This is my first Subcommittee hearing in 
Transportation and Infrastructure, and, quite frankly, I 
thought I might have a tough time keeping my head from banging 
the desk here, nodding off and everything. So I am wired up.
    And when I got here, I started listening to issues 
regarding smart growth and transit-oriented development and 
mixed-use urban planning. And these are all issues that, during 
my previous career as a county commissioner down in DeKalb 
County, Georgia, were frequently under discussion.
    And so I feel that, with my service on Armed Services 
Committee, where yesterday we had an authorization bill markup 
where we discussed issues of outsourcing versus insourcing and 
where it is clear that our Defense Department is insourcing--at 
substantial savings to taxpayers, I might add--and then I come 
to this meeting today and I hear that all of these 
conscientious and progressive land use plans that present a 
great quality of life for the people who live in urban and 
suburban environments and I hear how that interfaces with how 
our Federal Government handles the actual leasing of real 
estate and how that can hamper the savings that the taxpayers 
would enjoy from the insourcing of these functions and how that 
also has a detrimental impact on the land use policies that are 
so enlightened, I am now awakened to the importance of this 
Committee and what it is doing and what it is exploring today.
    And having heard from my colleague from Maryland, as she 
spoke about competition policy issues, well, I just happen to 
Chair the Subcommittee on Courts and Competition Policy in the 
Judiciary Committee. And this is, indeed, competition policy 
that we have spoken of. And so I am pumped up and ready to go.
    And I will yield the balance of my time. Thank you.
    Ms. Norton. Thank you very much, Mr. Johnson.
    Mr. Moran, you are a senior Member of the Defense 
Appropriations Committee, is that not the case?
    Mr. Moran. Yes, ma'am.
    Ms. Norton. What are you in seniority on that Committee, 
sir?
    Mr. Moran. I am third.
    Ms. Norton. Third in seniority.
    Mr. Moran. There is Mr. Dicks, Mr. Visclosky, and myself.
    Ms. Norton. Well, then I think you could be considered 
something of an expert witness when I ask you this question.
    Occasionally, the appropriators will authorize something, 
almost always after talking to the authorizing Committee. And 
are you aware of any language from the Defense Appropriations 
Committee that authorizes a separate set of standards for all 
DOD facilities regardless of the mission and function of those 
facilities?
    Mr. Moran. No. No, I am not. Well, I know we did not put 
anything in the Defense Appropriations bill that enabled DOD to 
carry out a separate set of standards. I think there is 
something in the authorization bill. I am not----
    Ms. Norton. Do you believe that what the DOD, the separate 
standards regardless of mission, is perhaps authorized in the 
D.C. authorization committee?
    Mr. Moran. Well----
    Ms. Norton. By the defense authorization--defense--sorry--
--
    Mr. Moran. The Armed Services Committee.
    Ms. Norton. Yes.
    Mr. Moran. I know we didn't put anything in the Defense 
Appropriations bill. But there is language that they intend to 
implement by 2014 that requires all buildings to be in 
compliance with the security standards. And that is one of the 
reasons that makes this hearing so urgent.
    I will hold on.
    There are standards that DOD intends to implement by 2014, 
and that is what makes this so urgent. Because when they do 
that, it is basically another BRAC process. Many DOD employees 
are going to have to move out of buildings that they are 
currently in, because those buildings don't meet these 
standards.
    Basically, any building that is in an urban area, in D.C. 
or in Virginia, at least inside the Beltway, in D.C., Maryland, 
or Virginia, that is near a Metro station doesn't meet these 
standards. The only way that you can get around it is to have 
less than 25 percent of the building as DOD employees. So some 
of them, they are moving into other buildings. So they use that 
loophole, which, of course, is totally counterproductive to 
what they say they are trying to accomplish.
    Ms. Norton. Sorry, what loophole is it again, Mr. Moran?
    Mr. Moran. That the standards don't apply if less than 25 
percent of the occupants are DOD employees. So, you know, if 
the building, for example, is housing--half are DOD employees, 
they will take half of that half, put it in another building 
someplace, so they can comply by using this loophole.
    Ms. Norton. So they would then need another facility for 
people doing the same kind of work, spreading them out at yet 
another facility.
    Mr. Moran. Absolutely, with less efficiency and greater 
expense.
    But there is no building, there is no commercial office 
building near a Metro station that can afford to be 82 feet 
away from an sidewalk, can afford not to allow public access, 
whether for retail activity, you know, a coffee shop, whatever 
it be, or a parking garage that some parts of the public don't 
have access to.
    So, Ms. Edwards talked about Metro stations. And you have 
Metro stations, and I have Metro stations. That is where they 
should be, and yet they can't be because of these DOD 
standards. And, by 2014, it is going to be as bad as BRAC was, 
in terms of moving all these DOD employees around just to meet 
these standards.
    Ms. Norton. Now, let's just follow up on that. BRAC 
employees, many of them are DOD employees.
    Mr. Moran. Yeah. Well, all of them are.
    Ms. Norton. The ones that are moving now to Fort Belvoir?
    Mr. Moran. All of them are DOD employees. They took 20,000 
people out of this area, the urban area, where virtually all of 
them were in buildings that had access to Metro. So many of 
them were relying upon Metro or were living in walking 
distance.
    Ms. Norton. So they are going to be----
    Mr. Moran. Now they have to get in an automobile and drive 
down to Fort Belvoir.
    Ms. Norton. Now, they were in buildings that did not have--
since this has been in effect since 2004----
    Mr. Moran. Yeah. They still are in those buildings, most of 
them.
    Ms. Norton. They are still in those buildings.
    Mr. Moran. Oh, yeah. But they have to move by----
    Ms. Norton. And they are in those buildings because the DOD 
didn't have these setbacks at that time.
    Mr. Moran. That is correct.
    Ms. Norton. So it would be interesting to know why in the 
world these setbacks came after 2004. Similar employees of DOD 
today, such as those now being insourced to the government, 
could not occupy the same office space that the DOD employees 
going to Fort Belvoir, for other reasons, will occupy.
    Mr. Moran. That is correct.
    And, of course, we would maintain that this kind of 
requirement falls under GSA's authority. That is where the 
jurisdiction is. And it should be this Subcommittee that makes 
that determination, what level of standards are necessary 
within a building.
    And GSA does this all over the world. In New York City, for 
example, you have these iconic activities, but you can't 
possibly have that kind of a setback, so GSA deals with it.
    Ms. Norton. Well, I wonder if there are any Department of 
Defense facilities in New York City. You are right. I wonder if 
DOD has any facilities in New York and Philadelphia and L.A. 
And its environs, given these setbacks, or if it could even 
contemplate it.
    Let me ask you another question based on your expertise, 
Mr. Moran, as a senior Member of the Defense Appropriations 
Committee.
    Do you believe that defense agencies, such as Defense 
Accounting, Defense Advanced Research Projects, and Defense 
Information Systems Agency, are sufficiently targeted or 
otherwise face threats that should require the taxpayers to put 
them in more secure facilities than they would occupy today in 
northern Virginia, the District of Columbia, and throughout the 
United States?
    Mr. Moran. Madam Chairwoman, I think that it is important 
to have some security. The kind of security that GSA is 
providing, I think, is an appropriate level of security.
    In this area, it seems to me there are certain high-value 
targets for a terrorist: the White House, obviously; the 
Capitol; the Pentagon; the CIA. There are monuments that would 
be high-value targets. But to suggest to these agencies that--
--
    Ms. Norton. One of the things we are going to have to find 
out is if those agencies come under this. Does the CIA come 
under this?
    Mr. Moran. No. No.
    Ms. Norton. There is a target for you.
    Mr. Moran. Well, yeah. And the Drug Enforcement 
Administration, it seems to me that could be a target. I mean, 
we are not just talking about terrorists that come from, you 
know, al Qaeda or whatever. There are terrorists involved with 
drug gangs. And DEA does some very sensitive, difficult work. 
Seems to me they could be targets. But they don't have these 
same standards applied to them.
    And the agencies you mentioned--and, of course, there are 
other agencies--the Joint Military Medical Command that we are 
consolidating, the training and so on, I mentioned TRADOC--any 
number of these, most people have no idea what the acronym 
means; they don't know where they are located. They conduct the 
same type of work that our other Federal employees do. It is 
supportive; it may be somewhat ancillary to warfighting, but it 
is important. But are they likely to be a target? I don't think 
so.
    This was a unilateral decision made during the Rumsfeld 
administration without considering the ramifications, the 
consequences, and the costs.
    Ms. Norton. Mr. Moran, let's take your district as an 
example. Do you know whether there is space in northern 
Virginia that is reasonably enough priced to be competitive in 
a competition for Federal employees, DOD or otherwise?
    Mr. Moran. The only way that you could find the kind of 
space that DOD is requiring----
    Ms. Norton. I am saying--I am sorry. I meant to say in 
existing space, not space with the setbacks, since you have 
testified that that kind of space doesn't exist.
    Mr. Moran. Right.
    Ms. Norton. If DOD came under the ISC or regular government 
employee regulations, would there be reasonably priced lease 
space in northern Virginia that could be competed out if DOD 
didn't have to comply with these standards?
    Mr. Moran. Oh, if they didn't have to comply, absolutely. 
If they have to comply with the standards, there is no space 
anywhere near Metro access. In other words----
    Ms. Norton. In other words, they might have to build--if 
they wanted somebody to be near the Pentagon, then they might 
have to build something somewhere. And, of course, I am not 
sure where you do that.
    Mr. Moran. They have to go way outside the Beltway, Madam 
Chairwoman.
    Ms. Norton. They couldn't build here very easily, because 
this is a built-up part of the region.
    Mr. Moran. No. No owner or developer can afford to build a 
building 82 feet away from the road and the sidewalk and not 
have any retail space available to the public, not have any 
public parking, not have any of it. That is just so counter--it 
goes so counter to smart-growth planning, which all of our 
jurisdictions are trying to engage in.
    Ms. Norton. I indicate that we are not here talking about 
all DOD space. We are saying, if you put ``defense'' in your 
title, that you can spend any amount of money, and we are 
certainly open--as I indicated, I am on the Homeland Security 
Committee--to a case for any function, even one that does seem 
to be, forgive the expression, a paper-pusher function. We are 
certainly open to the notion that, in fact, secure space may be 
required. We believe in the middle of a recession to leave 
space unfilled without explanation, to ask the government to 
pony up more money for space at a time when the Secretary is 
trying to take money down from arguably defense--real defense-
related support services, we think that is a heavy burden, and 
we will be open to having that burden met, and certainly your 
testimony has been important to our understanding.
    I am going to ask Mr. Cao if he has questions at this time.
    Mr. Cao. Representative, I just have a couple of questions.
    Do you know how much security would be improved if we go 
from GSA standard to DOD standard?
    Mr. Moran. I don't think you measurably improve security.
    What GSA does, as you know, and as the Chairwoman has been 
very deeply involved, they apply more flexibility, more 
judgment, if you will. I know in some buildings in New York 
that would be clear targets, what they do is they have a 
setback, but it is enclosed within the building, so they will 
have a lobby, for example, that the developer is still able to 
charge for, but they don't have actual offices there. The 
offices in the core of the building are more secure on the 
first two floors, and then the upper floors, which would not be 
vulnerable to, you know, a street--a car bomb or whatever--then 
they are glass-enclosed and so on, and you make full use of the 
space.
    But GSA takes the land that they are given, and then they 
figure out how best to secure these employees. Some of it is 
the parking, whether you can allow stationary, you know, 
standing parking or whatever in front of the building and so 
on. It is a matter of applying judgment to the building at 
hand.
    DOD takes, as you used the expression, a cookie-cutter 
approach. The same thing applies to every building without 
applying the kind of judgment that GSA has applied for years. 
What we are maintaining is that there is a lot of technology, 
that there is a lot of logistical planning.
    For example, we have been developing glass mitigation 
technology so that the glass is diffused, and you don't get the 
shattered glass and so on, and there is even glass technology 
where glass is not as likely to blow up into shards.
    All of those things, we think, should be taken into 
account, as GSA does and as developers want to. Unfortunately, 
DOD really doesn't need to because they just simply say, you 
don't give public access to the building. You need to have this 
enormous setback. You can't have it next to a Metro stop. You 
can't have public parking near it. You can't have any retail 
activity, and you certainly can't have any residential near it. 
So the good judgment that GSA normally applies doesn't have to 
be applied by DOD and normally isn't. No offense to the DOD 
folks here, but that is just the reality.
    So that is why we want these judgments to be under your 
Subcommittee, Madam Chairwoman and Members of the Subcommittee.
    Mr. Cao. Do you know of--I know that it is very hard to put 
a value on a human life, but do you know if any cost-versus-
benefit analysis has been done?
    Mr. Moran. There may be. I don't know. Maybe organizations 
like Urban Land Institute or something have done some cost-
benefit analyses. I don't know, Mr. Cao.
    Now, the real cost is going to occur when the security 
standards are forced into implementation, and that is what the 
building owners are trying to figure out now, how they are 
going to move these DOD employees around to get under the 
loophole, and how they are going to extend leases or cancel 
other leases. Of course, then they turn to GSA to figure out 
how to fill the building, which they have vacated for these 
reasons, but I don't know what the cost-benefit analysis might 
be.
    Mr. Cao. Thank you. I yield back.
    Ms. Norton. Thank you, Mr. Cao.
    Ms. Edwards.
    Ms. Edwards. Thank you.
    Thank you, Mr. Moran.
    I just wanted to go back to something that you mentioned, 
and it has to do with the relative security value or not of a 
whole range of different government functions, and so I 
wonder--I mean, if you think about it, there have been 
instances in the recent past where we have seen assaults/
attacks on military recruiting facilities, instances where the 
targets have been the Internal Revenue Service, instances where 
there have been DOD facilities.
    Depending on where a threat or other might come from, 
wouldn't you agree that any number of government functions, 
depending on, you know, who is doing the threatening, could be 
a target, and so it makes much more sense then, much more 
common sense, for GSA to simply apply the standard in its 
regular protocol rather than having individual agencies create 
their own standards, and then have GSA in the position of 
having to figure that out among the various agencies?
    Mr. Moran. Yes.
    Ms. Norton. Ms. Edwards, I have been called to vote across 
the hall. You don't have to take the chair to be in the Chair. 
Would you take the Chair until I return?
    Ms. Edwards. Yes, Madam Chairwoman.
    Mr. Moran. Madam Chairwoman, as you leave, thank you again 
for holding this hearing.
    The answer is yes. I would remind the Committee, I think 
you are aware, that the first real terrorism attack we 
experienced was against the CIA, for which these standards 
don't apply. Who was it? I forget his name right now. ``Ramzi'' 
or something. He was a Pakistani individual who killed 
employees trying to come into the CIA building. You would think 
that CIA is still a target, and yet these standards don't 
apply. Now, granted, the Agency has--there is a substantial 
setback off Route 123, but it would seem to make sense that you 
have a consistent standard across the board.
    As for the Department of Homeland Security, you would think 
some of those functions would be equally vulnerable to 
terrorist attack, and we have a number of intelligence agencies 
that are not actually part of the defense establishment, but 
would seem to be equally vulnerable.
    So I think the point that you make in your question is a 
very important one.
    Ms. Edwards. [Presiding.] Then, lastly, would you also 
agree that, within Armed Services--I mean, one of the things 
that you have been trying to do is to ensure that DOD, among 
agencies, also begins to operate with more environmental 
efficiency, and so balancing those interests, which, you know, 
various of our Committees have set as priorities and the 
administration has said is a priority, really compete against 
this notion of not being able to make the full utility of 
things like public transportation and 21st century urban 
planning techniques that really encourage that kind of transit-
oriented development/smart growth principles that you spoke 
about.
    Mr. Moran. Well, thank you, Ms. Edwards. You are absolutely 
right, and I am glad you raised that issue.
    As you know, everyone in the Washington metropolitan area 
subsidizes our transit system. We do it through property taxes, 
through other sources of revenue. We do it directly with Metro 
fares. We do it indirectly. Yet of these 20,000 employees who 
are moving because of BRAC and because of the security 
standards--both reasons--and because they are moving to a place 
that really doesn't have public transit access, you are taking 
them out of the Metro system, which means other Metro users are 
going to have to pay higher fees to make up for that loss of 
Metro travelers. You are forcing them into their automobiles.
    The Army Corps of Engineers is here. When we requested a 
study a few years ago as to the impact that this would have on 
395 and on Route 1 in Fairfax County, they said you could have 
as much as a 3- to 4-hour backup.
    Now, some of the places have been rearranged, but 
nevertheless, it is going to be what will seem to be an 
interminable backup, which means all this exhaust is going into 
the atmosphere. It is delaying other employees trying to get to 
work. So all of that--the exhaust from their engines is going 
into the atmosphere. It is not taking good advantage of Metro; 
it is raising the cost for all other users of Metro, and a 
region that is already the second worst in congestion will 
probably now become the worst in congestion because of this 
decision to move people out of Metro-accessible office 
buildings to a base that is already at a transportation 
condition that is failing on Route 1 and 395.
    Ms. Edwards. Thank you.
    So, again, going back to my earlier statement, just a 
reminder that with a quarter of the Federal employees in my 
district driving around the Beltway, we will, by policy, if we 
allow this really to take effect, exacerbate what you have 
described.
    I notice the Chairwoman is back and has assumed the Chair, 
and I think we are ready for Mr. Johnson.
    Ms. Norton. [presiding.] Thank you very much, Ms. Edwards.
    Mr. Johnson, have you any questions?
    Mr. Johnson of Georgia. Thank you, Madam Chairwoman.
    I would ask Mr. Moran: Do you know when the first DOD 
minimum antiterrorism standards for buildings was first 
promulgated?
    Mr. Moran. It was promulgated at the time of the 2005 BRAC 
decision, so there were two things.
    Secretary Rumsfeld decided he wanted to move people out of 
metropolitan areas onto military bases, and he wanted these 
additional standards to apply. My recollection is it was almost 
simultaneous, and it had two different implementation dates, 
2011 being the implementation date for BRAC. I think the 
security standard was extended somewhat, but that will also 
take place shortly thereafter, and it has been a few years, but 
we are not ready to accommodate it. When it is implemented, it 
will be at the 11th hour because the requirement for the 
building plus the transportation infrastructure that was 
supposed to be in place is not in place.
    Mr. Johnson of Georgia. Yes.
    The changes that were issued in 2007, January of 2007, were 
they less or more restrictive in terms of land use policies and 
those types of things?
    Mr. Moran. I don't think there was--I don't think there was 
much practical change. There was an extension of time, but I 
think, for the most part, we still have the setbacks. We had 
wanted--and I tried to put some language in and couldn't get 
the agreement of the House and Senate together--but to put some 
language in that would have left this for GSA to decide, but we 
have been unsuccessful in doing so. This is as far as we have 
gotten, frankly, because this is the Subcommittee of 
jurisdiction.
    Mr. Johnson of Georgia. So these DOD requirements have not 
yet gone into effect?
    Mr. Moran. No, but all are aware of it. They go into effect 
in terms of new leasing. So when DOD has to secure new leasing, 
they apply these standards; but for existing leases, they are 
waiting until the lease expires to move people, but they all 
have to be done no matter what, and I believe the date is 
sometime by 2014. I think it is like the drop dead date.
    Mr. Johnson of Georgia. So there still exists some time to, 
perhaps, streamline--well, I won't say ``streamline''--but 
amend the DOD standards as well as the GSA standards to, 
perhaps, provide for different levels of security, if you will, 
depending on the building in question?
    Mr. Moran. That is a good point.
    There is an interagency security standards group, and they 
have been working with GSA, and they determine different 
security standards for buildings, but they are not--DOD has its 
own.
    What we would hope is that that interagency security group 
would determine the necessary building security standards for 
all agencies just across the board. So it would be consistent, 
and the judgment would be applied, and they would, you know, 
reflect that judgment in terms of the vulnerability of 
individual agencies and the building where it is located, and 
the efficiencies of where the personnel ought to be, and even 
the type of congestion within a metropolitan area that ought to 
be taken into account.
    Mr. Johnson of Georgia. Well, thank you, Congressman Moran.
    I would say that I got a call last year from a property 
owner in my district--and a businessman in my district--who was 
leasing property to the Armed Forces for purposes of 
recruitment, a recruitment office basically, and his office 
building was threatened by the imminent departure of that 
agency, which made up one of his strongest tenants, and it was, 
of course, in the midst of this economic downturn. I don't know 
what has happened to him as a result of this building being 
pulled out from by the armed services, but those are the kinds 
of real human problems that we are faced with. Quite frankly, 
if he has lost that building in bankruptcy, there is another 
empty building somewhere sitting vacant. There are a number of 
janitors and support staff people who are out of work, and 
certainly it seems like this should not be rocket science to 
get figured out and to put some reasonable procedures in place 
that would satisfy all needs.
    So I thank you again for holding this hearing, Madam 
Chairwoman, and I yield back.
    Ms. Norton. I thank the gentleman for yielding.
    I think they are ready for another vote.
    I am going to ask the next witnesses to come forward, and 
excuse Mr. Moran not only because he has finished his very 
important and informative testimony, but to thank him, because 
we often have Members come to testify.
    You have played a dual role here, Mr. Moran, as a witness 
who has seen the operation of the very guidance that is under 
scrutiny here, and, of course, as an expert witness from the 
defense appropriations committee. We can't thank you enough for 
being willing to come and to testify.
    Mr. Moran. Well, as I said, Madam Chairwoman, our objective 
is to get this issue under the jurisdiction of your 
Subcommittee. That is where we have confidence that it will be 
resolved appropriately.
    Ms. Norton. And that is unusual. Defense appropriators 
don't want to usually get things anywhere else.
    There will be a 5-minute recess while I go to vote. I am 
going to vote in Committee, where I can vote. Unfortunately, I 
can't yet accompany Mr. Moran to vote on the House floor even 
on what this Committee sends to the House floor. I will be 
back.
    A 5-minute recess.
    [Recess.]
    Ms. Norton. The hearing will reconvene.
    I am pleased to welcome panel 2: Sue Armstrong, Deputy 
Assistant Secretary for Infrastructure Protection, Department 
of Homeland Security; Michael McAndrew, Director, Facility 
Investment & Management, Office of the Deputy Under Secretary 
for Defense, Installations and Environment at the Department of 
Defense.
    May I thank the Deputy for Legislative Affairs, Lowell 
Exum, Deputy Assistant Secretary of Defense, House side, House 
affairs, legislative affairs, for working with my office to 
make sure that the Department of Defense is represented here 
today.
    Samuel Morris, III, Assistant Commissioner, Office of Real 
Estate Acquisition, U.S. General Services Administration.
    Let us begin with Ms. Armstrong.

  TESTIMONY OF SUE ARMSTRONG, DEPUTY ASSISTANT SECRETARY FOR 
  INFRASTRUCTURE PROTECTION, DEPARTMENT OF HOMELAND SECURITY; 
 MICHAEL McANDREW, DIRECTOR, FACILITY INVESTMENT & MANAGEMENT, 
OFFICE OF THE DEPUTY UNDER SECRETARY OF DEFENSE, INSTALLATIONS 
   AND ENVIRONMENT, DEPARTMENT OF DEFENSE; AND SAMUEL (CHIP) 
   MORRIS, PUBLIC BUILDINGS SERVICE ASSISTANT COMMISSIONER, 
                GENERAL SERVICES ADMINISTRATION

    Ms. Armstrong. Thank you, Madam Chairwoman, distinguished 
Members of the Committee and staff. It is a pleasure to appear 
before you today to discuss the work of the Interagency 
Security Committee, or ISC.
    Chaired by the Assistant Secretary for Infrastructure 
Protection, the ISC is mandated to develop standards, policies 
and best practices for enhancing the quality and effectiveness 
of physical security in, and the protection of, the over 
300,000 nonmilitary Federal facilities located within the 
United States.
    The ISC was created as a direct result of the tragic April 
19, 1995, attack on the Alfred P. Murrah Federal Building in 
Oklahoma City, the deadliest attack on U.S. soil before 
September 11, 2001, and the worst domestic terrorist attack in 
U.S. history.
    Since the transfer of the chair of the ISC to the Office of 
Infrastructure Protection in August 2, 0007, the ISC has 
published several new and innovative products to increase 
security at Federal facilities. For example, in March 2008, the 
ISC developed and published the Facility Security Level 
Determinations for Federal Facilities, which defines criteria 
and the processes the facilities should use to determine its 
facility security level, which helps to define the level of 
security appropriate for the facility based upon an assessment 
of various risks.
    In addition, in June 2009, in accordance with the 
recommendation from the Government Accountability Office, the 
ISC developed and published the use of physical security 
performance measures, the first Federal policy guidance 
published about performance measures for physical security 
programs and testing procedures.
    Finally, on April 12, 2010, the ISC moved to the final 
stage of a comprehensive, multiyear effort to compile lessons 
learned and countermeasures for threats to federally owned and 
leased facilities, published in the interim Physical Security 
Criteria for Federal Facilities and the accompanying Design-
Basis Threat Report. These documents are the most comprehensive 
standards for Federal facilities created to date, and they 
provide a consistent basis for establishing facilities' 
physical security standards at civilian Federal facilities. The 
goal of these documents and the ISC's continuing work is to 
strengthen the standards and processes used to keep visitors 
and employees safe while at Federal facilities.
    I look forward to discussing this work with you in greater 
detail and to answering any questions you may have. Thank you.
    Ms. Norton. Thank you, Ms. Armstrong.
    Mr. McAndrew.
    Mr. McAndrew. Madam Chairwoman, distinguished Members and 
staff, I want to thank you for extending the invitation to the 
Department of Defense for being able to come here and discuss 
our minimum antiterrorism standards for buildings.
    In the late 1990's, the Department of Defense developed 
common guidance criteria and minimum construction standards to 
mitigate vulnerabilities from terrorist attack. The development 
of the DOD antiterrorism standards has been a collaborative 
effort of our Security Engineering Working Group that is made 
up of members from the Office of Secretary of Defense, the 
Joint Staff, our military services, our Army Corps of 
Engineers, Naval Facilities Engineering Command, the Air Force 
Civil Engineer Support Agency, the Defense Threat Agency, and 
several other agencies, to include some outside agencies that 
are invited in periodically.
    The focus of the antiterrorism standards is to minimize the 
likelihood of mass casualties from terrorist attacks on 
buildings occupied by DOD personnel, primarily through standoff 
distance, prevention of progressive collapse and the production 
of fragmentation hazards.
    At the time the standards were developed, there was concern 
over the ridged requirements for a standoff distance and for 
the applicability of the standard to leased facilities. We 
eventually resolved these issues by defining the effective 
standoff distance requirement being incorporated into our 
guidance, and it was also decided that DOD personnel in leased 
facilities would be given the same protection as DOD employees 
on military installations.
    The effective standoff requirement enables the minimum 
standoff to be reduced if the building can be analyzed or 
hardened to give an equivalent level of protection through 
other measures. This can result in a much more expansive 
solution, but it does give an alternative in cases of 
restrictive land availability.
    This also encourages the development of new technologies 
for building hardening. Rather than itself being a policy, the 
DOD minimum antiterrorism standards for buildings is an 
engineering document that implements the overarching policy to 
minimize the likelihood of mass casualties from terrorist 
attacks on buildings occupied with DOD personnel.
    The DOD antiterrorism standards are objectively calculated 
in response to a specific spectrum of threats. These common 
criteria and minimum construction standards are calculated by 
engineers to mitigate injuries and the damage of predictable 
attacks. Building materials used to mitigate blast effects have 
been tested by DOD laboratories and by laboratories of some of 
our international partners and universities. They are either 
tested in open arenas against real explosives or in blast 
simulators.
    Once materials have been tested, design guidance is 
developed so that the engineers can apply it in their designs. 
New technologies are continuously being evaluated, and 
standards are continuously being scrutinized to ensure that we 
have the right solutions and the right standards for protecting 
the people who live and work in the buildings we own, lease or 
otherwise occupy.
    As part of these valuations, the cost of materials in 
providing the appropriate levels of protection are evaluated to 
ensure that we are providing the most cost-effective solutions 
possible for protecting our people.
    As the Department developed the standards, it is understood 
that many existing leased properties, many of which are located 
in the Washington, D.C., area, would not meet the DOD 
antiterrorism standards. For this reason, the application of 
the standards to leased buildings was phased in to correspond 
to lease renewals after September 2009.
    In summary, the DOD antiterrorism standards for buildings 
represent an objective, empirical engineering analysis to save 
lives and mitigate the damage of specific threats as identified 
by the Intelligence Community. The sensitive nature of these 
threat assessments precludes discussing them in open forum, and 
as the threats to DOD buildings change, so do our standards.
    That concludes my remarks.
    Ms. Norton. Thank you very much, Mr. McAndrew.
    Mr. Morris.
    Mr. Morris. Good afternoon, Chairwoman Norton and Members 
of the Subcommittee. Thank you for inviting me to discuss the 
risk balance for protecting Federal employees and the 
implementation of DOD's antiterrorism standard for GSA-leased 
facilities.
    GSA is responsible for safeguarding approximately 1 million 
Federal tenants housed in our facilities nationwide. Our 
buildings must be secure and, at the same time, inviting places 
for the occupants and the public visitors. After the bombing of 
the Murrah Building in Oklahoma City, our country recognized 
the need for better security and protection in buildings 
housing the Federal workforce. Consequently, increased security 
standards were developed and implemented to protect Federal 
employees in all federally occupied space, both owned and 
leased.
    Recognizing that there are security trade-offs in any 
designated space, GSA has actively participated in the 
development of these security standards promulgated by the 
Interagency Security Committee, also known as the ISC. Prior to 
the Oklahoma City bombing, the government's building security 
standards focused on preventing theft and unauthorized entry 
into Federal facilities. The Department of Justice subsequently 
completed a security assessment that led to the establishment 
of security standards for all Federal facilities.
    In October 1995, Executive Order 12977 established the 
Interagency Security Committee. The Executive Order was issued 
to enhance the quality and effectiveness of security in and 
protection of buildings and facilities occupied by Federal 
employees for nonmilitary activities.
    The ISC established the Lease Security Subcommittee in 2003 
to develop a distinct set of standards of leased facilities. 
The Subcommittee issued the Security Standards for Leased Space 
in 2005.
    Last month, the ISC issued a new set of interim standards, 
entitled Physical Security Criteria for Federal Facilities. The 
new interim standards provide an integrated single source of 
physical security standards for all nonmilitary Federal 
facilities, including both owned and leased space. These 
interim standards recognize the security threats vary from one 
facility to another as such agencies can now customize security 
countermeasures to address identified risk at each facility. 
The interim standards supersede the previous standards set by 
the Department of Justice and the ISC.
    GSA will be developing leasing guidance to adhere to the 
new interim ISC standards as well as updating our solicitation 
of offers for lease procurements. The guidance will be 
finalized once the interim ISC standards are finalized.
    As the ISC standards apply to nonmilitary activities, DOD 
created its own security standards in October 2003 with the 
issuance of the Unified Facilities Criteria: DOD Minimum 
Antiterrorism Standards for Buildings. These standards apply to 
DOD facilities for new construction and leases executed after 
October 1, 2005. DOD security standards have historically been 
independent and separate from the standards set for other 
agencies governed by the ISC security criteria. GSA currently 
adheres to these standards for DOD lease procurements, and it 
will continue to work with DOD to refine their customer 
requirements.
    In implementing security standards, GSA works with each 
agency on a case-by-case basis to define their space and 
security requirements. GSA also relies on the Federal 
Protective Service to conduct security assessments for its 
leased facilities. For any agency customer, the security 
measures required can vary greatly depending on factors such as 
the tenant agency mission, the location and the size of the 
project.
    For example, setback requirements typically result in 
additional land acquisition cost, especially in urban areas, a 
point you have well made. If physical limitations prevent the 
setbacks that are required, other mitigating factors, including 
hardening the building shell, may be used, but that also comes 
at a price. Cost is an important consideration when 
implementing security recommendations and security 
countermeasures. Under the new ISC standards, any decision not 
to implement a recommended countermeasure is supposed to 
include a documented acceptance of risk by the customer agency.
    I think the burden of customer agency officials, assuming 
that risk, so to speak, versus following the security 
recommendations will prove to be a difficult thing to overcome. 
GSA considers all of these factors when working with our 
customer agencies to provide secure facilities for our tenants 
and a welcoming atmosphere for the public visitors who use 
those facilities.
    That concludes my testimony, Madam Chairwoman. Thank you 
again for inviting me to appear before you today, and I would 
be happy to answer any questions that you might have.
    Ms. Norton. Thank you, Mr. Morris.
    I thank all of you for your testimony because it has made 
it possible for us to understand, even in advance of questions, 
some of what you have been trying to do.
    Now I am looking at the members who, under Executive Order, 
are representing 21 agencies, the agencies under Executive 
Order, which apparently had a role, Ms. Armstrong, in helping 
DHS to design the so-called ISC guidelines, one of them is the 
Department of Defense.
    Ms. Armstrong. Yes, ma'am. DOD is a primary member of the 
Interagency Security Committee.
    Ms. Norton. Even though the Department of Defense has 
exempted itself from the ISC regulations and guidance?
    Ms. Armstrong. Well, the original Executive Order from 1995 
specified the primary membership of the ISC and included the 
Department of Defense. There are currently----
    Ms. Norton. That would seem to imply that the President of 
the United States at the time and his administration--President 
Bush--considered DOD a proper recipient of these guidelines.
    If the DOD is included in the agencies required to design 
the guidance, how at the same time can DOD have everything to 
say for every other agency, having had its licks on every other 
agency, saying, we are now exempt? Would you explain how DHS 
has allowed that to occur and whether it is rational as a way 
of treating DOD. You are ``in'' when it comes to every agency. 
You are ``out'' when it comes to any agency that is a DOD 
agency.
    Ms. Armstrong. Well, ma'am, I was not around when this 
Executive Order was issued in October of 1995 by President 
Clinton, but it does, in the same document, specify membership 
of the ISC, but it is specific to nonmilitary Federal 
facilities for the ISC----
    Ms. Norton. Well, that is important. It says 
``nonmilitary.'' You say ``nonmilitary,'' and you are, in fact, 
relating to the preface, the DHS preface, for the ISC 
guidelines.
    We would like to know how ``nonmilitary'' got translated 
into non-Department of Defense. The word ``military'' has a 
special meaning in our country. How does that come to mean--you 
or Mr. McAndrew would be helpful in having us understand this.
    We don't in this country use ``defense'' and ``military'' 
interchangeably, Mr. McAndrew, for a very good reason, given 
our traditions. If the Executive Order required DHS to use the 
word ``nonmilitary,'' who gave the authority to DHS, to the 21 
agencies or anybody else, to translate that to mean ``non-
Defense Department,'' which is a much broader term than 
``nonmilitary''?
    Mr. McAndrew. I can take a shot at that, ma'am.
    It also responds to some of the questions that came up 
during Congressman Moran's testimony.
    Our authority for doing our own standards, as it were, is 
rested in 10 U.S.C. 2859, where it directed the Secretary----
    Ms. Norton. Would you cite that again, please?
    Mr. McAndrew. Section 2859 of 10 U.S.C., United States 
Code. It directed the Secretary of Defense to come up with our 
own criteria and guidance for doing force protection, 
antiterrorism force protection.
    Ms. Norton. What was the Committee that directed you to do 
this?
    Mr. McAndrew. House Armed Services.
    Ms. Norton. What was the date?
    Mr. McAndrew. You know, I didn't research that, but it had 
to be around the 1996-1997 time frame. I just didn't research 
that time frame.
    Ms. Norton. So you believe that you have statutory 
authority to translate the Executive Order to mean anything 
that is DOD?
    Mr. McAndrew. I will go on to say that you are absolutely 
correct. The term ``military,'' in use, is something very 
specific.
    In 10 U.S.C. 2687, a document that we use a lot for basing 
decisions when we are not doing BRAC, has a definition of what 
a military installation is, and it specifically includes the 
use of the term ``leased space'' that DOD occupies. So 
technically when we lease a space or lease a building, it 
becomes a military installation, according to that statute. So 
that is where our interpretation comes where people start using 
the terms ``military'' and ``military installations.''
    Ms. Norton. So we are dealing with a definitional problem 
here, and you believe that you are authorized to spend whatever 
is necessary through this translation. So, therefore, I am 
going to have to ask you whether or not you take threat or risk 
into account or whether or not the DOD has ever done any risk 
assessment of the Defense Accounting Agency or the Defense 
Information Systems Agency. Have you any risk assessment with 
respect to whether they could be targets or whether there are 
threats in any way? I would like to know as well whether any 
risk assessment, since there is now an ongoing procurement, has 
been done with respect to Medical Command.
    Mr. McAndrew. I will have to probably take some of that for 
the record. I am fairly certain that we did do the risk 
assessments, but I would have to find out where those are. It 
is part of the procurement process that we go through.
    Ms. Norton. So your testimony here today is that it is the 
practice of the Defense Department, regardless of the fact that 
they have a blanket authorization, you say, to use your own 
special regulations. Nevertheless, you say, you do a risk or a 
threat analysis for each and every one of these administrative 
agencies before deciding that they, in fact, come under this 
guidance.
    If you do it, I don't know why you are doing it. You are 
wasting your time, Mr. McAndrew. I wouldn't bother if I were 
you. If I believed that there was statutory authority to take 
anything that has ``defense'' in its title and require 148-foot 
setbacks as opposed to 50-foot setbacks, or 148-foot setbacks 
here as opposed to 100-foot setbacks in Kenya, I wouldn't 
bother with the threat analysis. What a waste of time. Just put 
in the word ``defense,'' since you think you have the authority 
to do so. I don't know why you would do risk or threat analysis 
at all.
    Mr. McAndrew. I am sorry?
    Ms. Norton. Yes, sir.
    I would like to know whether you do it for each and every 
one of these agencies, these civilian defense agencies, and, if 
you do, why you do it since you believe you have blanket 
authority to use these setbacks and other requirements in your 
own regulations.
    Mr. McAndrew. We set out some very specific guidance on how 
we do our analysis and why we do our analysis, and those 
analyses, they actually drive whether or not we need 148-foot 
setbacks, 82-foot setbacks or not. Those are minimum standards. 
They are not locked in concrete where people think they have 
to----
    Ms. Norton. So are there some DOD facilities where you have 
now or intend to use setbacks less than the setbacks in the 
force protection?
    Mr. McAndrew. I am sure there are, ma'am. I am sure there 
are.
    Ms. Norton. Would you name some that you intend----
    Mr. McAndrew. I would have to go back and look at the DARPA 
building that they are going to be constructing now.
    Ms. Norton. Would you get to this Committee within 14 days 
the names of some which you think may not require the setbacks, 
and I would like to know if Medical Command would be one of 
them.
    Mr. McAndrew, you are really talking to a Member of the 
Homeland Security Committee, who sits right here in target 
number one except for New York City. That is why, when the 
Homeland Security Committee was only a select Committee, I was 
made a Member of that Committee. I spent a lot of my time on 
homeland security--I am sure not as much as you because you are 
Defense Department--but I have to tell you that it bothers the 
Homeland Security Committee when there is any trivialization of 
what ``homeland security'' means, because we think people are 
too quick to forget 9/11, and we understood, before 9/11, when 
we had not been attacked, that people had one sense of 
security. After 9/11, we found people going too far the other 
way. They tried to close down the streets of the District of 
Columbia.
    We recognize that we are all learning. As a Member of the 
Committee, I am still learning.
    I want to ask you the question I asked Homeland Security, 
the very chairmen of the 9/11 committee this week. They came 
before our Homeland Security Committee. They are Governor 
Kean--former Governor Kean of New Jersey--and Lee Hamilton, a 
former member of the Defense Authorization Committee. I simply 
asked them, since we have put into law virtually everything 
that they recommended, whether they believed--I didn't talk 
about what we were going to discuss in this hearing. I simply 
asked them an open question. Given their experience, given what 
they had learned in closed hearings, I asked them whether or 
not they believed that cost was adequately considered in what 
we have done since 9/11 in relation to risk, and it was very 
interesting to hear these two most experienced Americans in 
that regard.
    The first thing Lee Hamilton said was, you know, we have 
never been asked that question, and it is time we were asked 
this question. They said they thought money was being wasted in 
securing the people of the United States, that they believed 
that cost was seldom taken into effect in relation to benefit. 
They did not have the Defense Department in mind, and I 
certainly didn't ask them specifically, but I was very 
concerned at a time of unacceptable deficits, of the great call 
on the administration for funds, and an unemployment rate that 
remains stubbornly high that both members--Mr. Kean and Mr. 
Hamilton--were quick to say that we are past the time when we 
need to look at, finally, doing some cost-benefit analysis.
    I wonder if you believe it would be appropriate for every 
agency, in doing their analyses of what to spend on facilities, 
to include a cost-benefit analysis among other factors that 
they consider.
    Mr. McAndrew. Madam Chairwoman, absolutely.
    Any time we procure or any agency procures anything that 
uses taxpayer dollars, they should be doing the cost-benefit 
analysis, and we take that into consideration even when we do 
our own construction and leasing, you know, whether we require 
setbacks or whether we require more hardening of the building. 
Each one of those has different costs, but they also serve 
different purposes for solving different threat assessments and 
threat mitigation.
    So, yes, cost is a factor, but sometimes, you know, we have 
to balance the availability of that land versus the hardening 
of the facility itself, and how you harden a facility. So we do 
take that into consideration. We are very serious about it. We 
have a whole center dedicated for just doing that kind of 
analysis.
    Ms. Norton. I notice that your standards say the costs 
associated with those levels of protection must be or are 
assumed to be less than the physical and intangible costs 
associated with incurring mass casualties.
    Would you say that that standard has been applied to 
Defense Accounting or to Medical Command? Do you truly believe 
that we could incur mass casualties there with any reasonable 
kind of cost-benefit analysis compared to other DOD facilities?
    Mr. McAndrew. The view of the Department is the threat to 
our people is the same wherever they are, whether they are in 
leased space----
    Ms. Norton. Because the word ``defense'' is in the title?
    Mr. McAndrew. No, ma'am. The basis of our policy is that we 
treat all of our people the same regardless of where we house 
them, whether it is on a military installation or off.
    Ms. Norton. Well then, what is the point of this threat? 
You see, time and time again, Mr. McAndrew, I don't even 
understand why you need--you don't need these guidelines. What 
is this, all window dressing? Associated with incurring mass 
casualties. Then your answer to me is, hey, whenever it is DOD, 
we apply the same to everybody.
    Mr. McAndrew. We apply the same threat to everybody.
    Ms. Norton. But is everyone under the same threat, Mr. 
McAndrew? Are the people who are in some of your very secure 
facilities--and you know the ones I mean. I am not going to 
call them out--are they under the same threat as the Medical 
Command, as the physicians who are in an administrative 
capacity for whom you are seeking space now?
    Mr. McAndrew. In our view, they are.
    Ms. Norton. What? The Contract Audit Agency, the Finance 
and Accounting Service, the Defense Imagery and Mapping Agency. 
All of those should be grouped together.
    If they should be grouped together, if that is your 
testimony, would you explain to me why you need bother with any 
regulations at all? Since you have one blanket standard for 
everybody, why waste your time? You have not told me, Mr. 
McAndrew, why--if you apply it blanketly, why it is necessary 
to go any further than simply that blanket application?
    Mr. McAndrew. Because the threat itself, ma'am, has got to 
be tempered with the risk involved to that agency. There are 
risks and threats. They are two different things. The 
``threat'' is a threat. The risk--how you mitigate the risk and 
what----
    Ms. Norton. Is the risk to the National Imagery and Mapping 
Agency greater or less than the risk to the CIA, which comes 
under the standards that Ms. Armstrong has developed?
    Mr. McAndrew. Depending on where they are sited and the 
type of building they are in, they are probably----
    Ms. Norton. I am talking about where they are sited now.
    Mr. McAndrew. They are less risk because they have got the 
standoff. They have got the physical security things.
    Ms. Norton. Who has it? The Medical Command doesn't have 
it.
    Mr. McAndrew. No, not the Medical Command. The CIA.
    Ms. Norton. The what?
    Mr. McAndrew. It is the high-end security folks you are 
talking about--NEMA.
    Ms. Norton. Does the Defense Audit Agency have the 148-foot 
setback?
    Mr. McAndrew. It depends on the facility they are in, 
ma'am. I don't know what facility they are in. They may only 
have----
    Ms. Norton. If they don't, will you be looking for more 
space for the Defense Audit Agency?
    Mr. McAndrew. No, I wouldn't.
    Ms. Norton. If they don't have the 148-foot setback, will 
you be looking for other space that does have 148?
    Mr. McAndrew. That is only one factor. No, ma'am. That 
alone does not drive them to move.
    Ms. Norton. Are you aware that you cannot find 148-foot 
setbacks in the District of Columbia, Northern Virginia and 
Montgomery County, among other places in the United States, New 
York City? I won't go across.
    Do you understand that this standard cannot be applied for 
most leased buildings in the places where the Federal 
Government leases today?
    Mr. McAndrew. The setback one, yes, ma'am, I am fully aware 
of it.
    Ms. Norton. What do you intend to do about it?
    Mr. McAndrew. We have policy in place within the Defense 
criteria. The UFC criteria allows you to reduce that footprint 
in order to augment----
    Ms. Norton. Have you reduced that footprint yet at all for 
any facility?
    Mr. McAndrew. I am sure we have, and I will get you that 
information you asked for earlier.
    Ms. Norton. I would appreciate it.
    It appears to me, Mr. McAndrew, that unless you are 
prepared for waiver after waiver, you will have to forgo your 
own guidelines unless you mean to spend taxpayers' funds on 
building facilities in rural areas that are not in proximity to 
public transportation, and I ask you to simply take that under 
advisement.
    I appreciate your being here. You knew that I had more 
questions for you than for others, but we have got to 
understand this, especially since GSA--Mr. Morris--says, you 
know, we just salute. That is one of my problems with GSA. We 
just salute. We do whatever they tell us to do.
    You do what HHS told you to do when you ignored the 
guidelines of this Committee and redlined Ms. Edwards' 
district, and you do exactly what these folks tell you to do--
and I must ask you--even though you know it will be difficult 
to find facilities reasonably priced without building them; 
isn't that the case, Mr. Morris?
    If you were told by Mr. McAndrew, as you have now been told 
by his agency, to go out and find Medical Command, wouldn't 
that put a great burden on you to find space at reasonable cost 
to the taxpayers in the usual places where the Medical Command, 
for example, now is located and would expect to be located?
    Mr. Morris. Well, it can definitely have an impact. I think 
the Medical Command procurement is a consolidation of a number 
of parts that are currently housed not only in leased space, 
but in some government-owned space. So with the setback 
requirements that DOD requires----
    Ms. Norton. Well, heaven help them in government-owned 
space, because if there are not setbacks in spaces that are 
more recently built, name me some government-owned space which 
has been built with 148-foot setbacks.
    Mr. Morris. Well, I think they are pulling those different 
components from locations around the country. Part of that is a 
BRAC consolidation.
    And yes, complying with the requirements does pose a burden 
on trying to find adequate space. I think that we have been 
able to do that with this particular procurement. I know it is 
under way now, and I believe the requirements in the prospectus 
that--or before the Committee now--calls for the use of 
existing space. So we won't be building new construction. It 
will be----
    Ms. Norton. So you have been able to find a 148-foot 
setback, you believe, for Medical Command?
    Mr. Morris. I believe so, yes, ma'am.
    Ms. Norton. And you believe you have been able to find it 
within this region?
    Mr. Morris. Yes, ma'am.
    Ms. Norton. And close to public transportation? Because 
that also is a GSA requirement.
    Mr. Morris. Right. The proximity to public transportation 
had to be relaxed for that procurement from what we normally 
do. That is a problem.
    Ms. Norton. Have you, Mr. McAndrew, or you, Mr. Morris, 
alerted proprietors or authorizers of potentially greater cost 
under the 2004 guidelines for DOD? Have you alerted your 
authorizers or appropriators of that possibility?
    Mr. McAndrew. Ma'am, we have. In fact, it is inside the 
UFC, too, that it is very clear that come with the mitigation 
for the risks and the threats comes an additional cost, a 
premium on whatever we build. Even within our military 
construction, it has been--and it is highlighted on 1391--about 
a 3 to 7 percent premium over the traditional conventional 
construction we do.
    Ms. Norton. And you believe that that cost is justifiable 
across the board for DOD facilities?
    Mr. McAndrew. Yes, ma'am. We have been justifying it since 
about 1999, yes, ma'am.
    Ms. Norton. Well, I will tell you that Mr. Moran had not 
heard about it, and he felt strongly enough to come to this 
Committee, so you are going to have your opportunity to justify 
it before your own appropriators.
    I didn't hear about it, Mr. Morris, from you, from GSA, but 
I certainly learned of it when the word got around from the RFP 
going out.
    Have you advised DOD on the delta in costs, that it is 
likely to occur since you are the agent, if not the designer, 
of their guidance? Do you feel you have any responsibility to 
point out the risks and costs and otherwise, or to in any way, 
as the government's chief real estate agent, advise DOD, given 
your expertise, of alternatives to a blanket use regardless of 
mission, of these setbacks and other requirements? And the 
setbacks are only one of the requirements. Do you have any 
responsibility here?
    Mr. Morris. Oh, I think we do. And I think we--on any 
particular procurement, we engage in a cost analysis on, 
especially, inherently governmental security requirements. Even 
under our OMB guidelines, we have to estimate what those costs 
are going to be.
    Now, that may vary from one particular project to another. 
For instance, I have been familiarizing myself with the Medical 
Command prospectus requirements in anticipation of this 
hearing. And I note that the rental rate cap set forth in the 
prospectus is $40 a square foot, which is up a dollar from what 
is normal in northern Virginia, at $39 a square foot. So I am 
sure a part of that cost increase is attributable to the DOD 
security requirements.
    But even in other Federal agency procurements, when we have 
to look at the cost for the A-11 government security 
requirements, we have to advise the agencies, because they 
typically have to fund those costs up front. And so, when we 
are, for instance, doing a procurement for an FBI field office, 
a law enforcement agency that has extensive security 
requirements, they have to look at those costs and have the 
money available in hand when we get ready to do one of those 
procurements to fund those security costs.
    And, quite frankly, we are seeing pressure from other 
agencies now when we go through this exercise trying to find 
alternative countermeasures to what they typically have been 
asking for, especially in terms of setback requirements, to see 
how we can accommodate that security risk level in other ways. 
So we are seeing more and more of that from our customer 
agencies. 
    Ms. Norton. Now, you say, oh, well, we have found some 
Medical Command; of course, we have to waive the distance from 
Metro. Are you saying that you believe that with ease you can 
find DOD facilities under these regulations in the future----
    Mr. Morris. No, ma'am.
    Ms. Norton. --in this or any other part of the United 
States, in urban or suburban areas?
    Mr. Morris. No, ma'am. I think it is especially difficult 
to find those kind of available sites in urban areas. It is 
difficult to do. It is especially difficult in light of the 
administration's directive under the greenhouse gas Executive 
order and the increased emphasis on locating facilities in 
urban areas and near public transportation. It is hard to do, 
and there is a cost.
    Ms. Norton. So is this a realistic standard, Mr. Morris, if 
you are looking for space in this region or in the New York 
region or in the Chicago region, where many of our facilities 
are located?
    Mr. Morris. I think you have to really look at the 
particular agencies being housed----
    Ms. Norton. No, wait a minute. You are not going to get out 
of this this way. Because if your testimony is you have to look 
at the particular agency, I will give that to Mr. McAndrew 
right here and now. I am not here, as a Member of the Homeland 
Security Committee, saying that risk and threat--I am saying 
just the opposite.
    So if you are saying that your answer is you need to look 
at each building, I am saying to you, how can you do that, 
given the regulations that are required here?
    Mr. Morris. I think the best thing to be able to do is have 
the flexibility so that, if you can't meet setback requirements 
that are normally required, that there are other alternatives 
that can mitigate the risk assessment for that and be as 
effective as----
    Ms. Norton. Well, do these regulations allow you to do 
that? Mr. McAndrew says yes.
    Mr. Morris. Yes, Mr. McAndrew has helped educate us in 
preparation for this hearing that there are flexibilities----
    Ms. Norton. Where in the standards is there----
    Mr. Morris. Well, they are not as easily documented in the 
actual standards as we would like to see. A lot of this is left 
up to local commanders, according to our discussions with him, 
and it puts a lot of burden on people to try to make that 
assumption of risk----
    Ms. Norton. Are you aware there is no provision in the--you 
know, do words mean anything? Does the law mean anything? There 
is no provision in these standards for waivers. You may be 
quite ultra vires, both you and Mr. McAndrew or the Defense 
Department, in operating outside of these standards. And I see 
nothing saying you may waive under certain circumstances. I 
just asked staff, find me the waiver language.
    Who do you think you are, Mr. McAndrew? ``If I like them, I 
will apply them. If not, I will waive them, whatever the 
standards say and whatever my authorizing statute.'' Where is 
law and adherence to regulations? Where does any of that come 
into this?
    Mr. McAndrew. Ma'am, I just want to make sure I understand, 
Madam Chairwoman, that----
    Ms. Norton. Who said you could waive? I don't see any 
waiver language in----
    Mr. McAndrew. You are absolutely--there is no waiver 
language, ma'am.
    Ms. Norton. Sir?
    Mr. McAndrew. There is no waiver language in our guidance.
    Ms. Norton. So how can you waive?
    Mr. McAndrew. You don't. You mitigate. You mitigate the 
risk. It doesn't mean you eliminate the risk.
    Ms. Norton. Is there mitigation language in your 
regulations?
    Mr. McAndrew. Absolutely. In mine, there are.
    Ms. Norton. I am going to ask you to provide me that 
language. I am not going to ask staff, but I am going to ask 
you to provide me that language about mitigation. Because if 
there is language about mitigation, which is not the same as 
waiver----
    Mr. McAndrew. Exactly.
    Ms. Norton. Your earlier testimony implies that it is being 
implemented as if it were a waiver.
    Mr. McAndrew. People are interpreting them the same way, 
yes, ma'am. They are thinking that the mitigation is a waiver. 
And I have even seen documents where they use that word. But, 
actually, what they are doing is they are putting in place 
mitigation procedures--hardening the walls, using the right 
kind of window glazing. Those kind of things are mitigation 
measures to the setback.
    Ms. Norton. That is a mitigation measure that can cost you 
more than 148-feet setback.
    Mr. McAndrew. Exactly. Those are cost balances, whether you 
can----
    Ms. Norton. In other words, we don't want you to spend the 
money on 148-foot setback. We want you to spend the money on 
tearing down your walls or, in fact, putting up additions to 
your walls. I am not sure what kind--I wouldn't call that--Mr. 
McAndrew, I would not call that mitigation. I would simply call 
that cost transference and substitution.
    We are dealing here with, at best, unclear guidelines.
    And, Ms. Armstrong, I must ask you, I don't understand how 
these folks are in it. Would you explain how they can list 
themselves to opine on the Department of Homeland Security when 
they don't hold themselves, the Department of Defense, to the 
regulations on which they are having a say? How can you justify 
that?
    Ms. Armstrong. Well, they are on the list that you are 
looking at, because they are----
    Ms. Norton. Do they come to your meetings?
    Ms. Armstrong. Yes, ma'am.
    Ms. Norton. What are they doing there?
    Ms. Armstrong. They are----
    Ms. Norton. They do not put themselves under the guidance. 
By what right have they to be in these meetings at all? They 
think they are not a part of you.
    Ms. Armstrong. Well, I don't think they think they are not 
a part of our Interagency Security Committee, because they 
belong to it and sit on some of the working groups.
    Ms. Norton. So all of this is definitional. If your name is 
on here, you belong, whether or not you abide by the very 
regulations that assume that those listed will, in fact, abide.
    Ms. Armstrong. Right. I agree. And I think it is just a 
fact of where authorities lie. So we have an Executive order 
from 1995 that establishes the ISC, its roles, and its 
membership. And then there is a statute in subsequent years 
that assigns DOD's specific responsibilities.
    Ms. Norton. Well, we are going to have to see that 
statutory authority, because we haven't seen it yet. But I 
understand your testimony.
    Given your expertise, Ms. Armstrong, is every DOD mission--
because that is what is covered here, every mission of DOD--at 
greater risk than Federal judges who sit on terrorist cases and 
U.S. attorneys who sit and bring those cases, along with often 
equally dangerous matters involving criminal gangs and drug 
cartels and the rest?
    Why are those agencies, under your guidelines, subject to 
50-foot setbacks or even, I would take it, less, according to 
how you do risk assessment, whereas DOD, regardless of mission, 
is subject to 148-foot setbacks or mitigation that may be as 
costly or more costly?
    What should the judges in district court proceedings now or 
U.S. attorneys think of the difference between themselves and 
the Defense Mapping Agency in terms of force protection 
provided at taxpayers' cost? How could you justify that if a 
judge said, ``I want the same thing because I sit on terrorist 
cases''? How would you justify that?
    Ms. Armstrong. Well, having never worked for the Department 
of Defense and being a security practitioner from the----
    Ms. Norton. How would you justify to the Department of 
Justice, who is a party to your guidelines but not to the 
Defense Department guidelines?
    Ms. Armstrong. Right. Well, the ISC standards give due 
consideration to an agency's mission, what its employees do, 
whether the public needs to come to its facilities to do 
business or not. And we use a sliding--I won't say a sliding 
scale, but we set, after an assessment of a particular facility 
or an assessment of the plans for a facility----
    Ms. Norton. Is there any Federal court that you know of 
that is subject to 148-foot setback?
    Ms. Armstrong. I can't think of a particular court building 
off the top of my head.
    Ms. Norton. Why, in your judgment, the judgment of any of 
you, should there be a greater setback for the Medical Command, 
148 or comparable if mitigated, than there is for the State 
Department, which has 100-foot setback even in parts of the 
world where there have been terrorist threats?
    Justify using a standard for civilian administrative 
employees that is greater setback than for, for that matter, 
Department of Defense employees who work in embassies where 
there have been actual threats and actual terrorism.
    Mr. McAndrew. Madam Chairwoman, could I make a point of 
clarification, having just worked on one of our buildings going 
on to an embassy ground?
    The 148-foot setback that you are talking about is in an 
unconstrained, uncontrolled environment. That is the least we 
would have--without mitigation, by the way. That is 
constructing like anybody, without any kind of protective 
measures.
    The State Department is in a controlled environment. They 
have a fence line. It is within the fence line that they are 
100 feet back. So that is in a controlled environment. Even 
within our controlled environment, we only have an 82-foot 
setback. It is much less. In fact, we are still studying 
whether it needs to be 82 or not. We are trying to do----
    Ms. Norton. What is the setback for the CIA?
    Mr. McAndrew. I am not sure. I defer to----
    Ms. Norton. I ask it only because, obviously, the building 
was built a long time ago.
    You do notice, Mr. McAndrew, that the District of Columbia 
has not gone out of business after 9/11?
    Mr. McAndrew. Yes, ma'am.
    Ms. Norton. That is largely because Ms. Armstrong and the 
agencies involved in her effort and Mr. Morris had to sit down 
and do risk and threat analysis, and they have decided that 
some of our buildings that--maybe the Department of Justice--
those people are still on, is it Constitution or Pennsylvania 
Ave, everybody?
    Mr. McAndrew. Constitution.
    Ms. Norton. Those people are still on Constitution Avenue. 
You want a hated Federal agency? The IRS is still right there 
in your face. What is that, Constitution or Pennsylvania 
Avenue?
    Mr. McAndrew. Both.
    Ms. Norton. Both Constitution and Pennsylvania Avenue. And 
they would have had to go, given the threats, particularly 
after 9/11, unless some serious analysis had been done by all 
of those involved. Because nobody wants to put IRS and 
Department of Justice employees at any greater risk than DOD 
employees.
    And all I am asking is whether or not you have gone through 
anything like that kind of risk analysis for all of the 
agencies for which you will be seeking what amount to overseas-
type setbacks because you think that the environment is not as 
controlled.
    I am asking you if you are systematically doing this kind 
of analysis that has left us able to have our agencies on the 
sidewalk here, albeit with some reinforcements. Are you doing 
that kind of analysis, for that matter, for your own agencies--
--
    Mr. McAndrew. Yes, we are.
    Ms. Norton. --that do not have setbacks?
    Mr. McAndrew. We do. We do it on every installation, for 
every military construction project that comes forward.
    Ms. Norton. Don't use the word ``military'' before this 
Committee interchangeably with ``defense,'' please. We really 
object to--we regard military as something--I wouldn't be 
having this hearing if we were talking about military. We are 
talking about Department of Defense civilian agencies, Mr. 
McAndrew.
    Mr. McAndrew. Well, they fall under the same guidelines as 
any other location we are at. So they will follow it, and they 
will follow the same analysis that goes on by an installation 
commander who has jurisdiction over them. And they will conduct 
the same vulnerability assessments and the same threat 
assessments and risk assessments. And they will try to do their 
best to work out the mitigation with engineers to make sure 
that they are applying the money in the most cost-effective, 
reasonable way. That is a requirement under these guidelines.
    Ms. Norton. Well, I think we have established, Mr. 
McAndrew, that mitigation means--mitigation may come to mean 
waiver, if cost is taken into effect.
    Could I ask you, Mr. Morris--you are well aware of how 
difficult it is to get funds for bricks and mortar, because we 
are building the Department of Homeland Security now. It took 
me at least 5 years to get the funds for this building.
    We already have the figures on the elevated costs--I cited 
them in my opening testimony--when it comes to Medical Command.
    Has GSA been able to quantify how much more DOD leases will 
cost in this region if the present so-called ISC standard, 
force protection standard, is to be observed by GSA in leasing?
    Mr. Morris. Could you clarify that again?
    Ms. Norton. We know about Medical Command because I cited 
the true escalation in costs, $57 million over the 15-year 
period. Have you quantified how much more DOD, on the average, 
will cost the government if you are required to apply these 
standards in finding other space for DOD?
    Mr. Morris. We have not.
    I went back, in preparation for the hearing, to try and 
take a look to see how many lease procurements we have actually 
done for DOD since the standards were put in place. And we have 
done a number of procurements. When I tried to figure out from 
the database what percentage of those leases were in buildings 
that fell underneath that 25 percent threshold, I was getting 
bad data.
    So, you know, out of the number of leases that we have 
done, when I looked through them--they are across the country 
in all our regions--and I spotted a couple that we have done, 
for instance in the national capital region, the DARPA 
procurement, but it looked like a lot of those leases that we 
have been handling were smaller square footage. So it is likely 
that they were in buildings that their occupancy fell below 
that 25 percent level.
    Once we are getting into a prospectus-level procurement, 
you know, there is a lot more focus on that, as you have well 
identified, with the Medical Command. So we don't have a 
comprehensive projection on those costs.
    Ms. Norton. I am just trying to make--it is a little 
forehanded here, so we don't come up to a lease and find 
ourselves up against a brick wall, if you will excuse the 
expression.
    Mr. Morris. One of the things that has come out of the 
interim nature of the ISC standards is that the government 
needs to be monitoring these new standards and the cost-risk 
analysis over the next 2 years and report back to OMB before 
the standards are finalized and issued on a permanent basis.
    Ms. Norton. This is very important because OMB is now 
deeply implicated. By virtue of this hearing, there is no 
question that we have implicated OMB's Circular A-11, Appendix 
B. And you recognize that, if the asset to be leased is built 
to the unique requirements of the government, then the lease 
for that asset is a capital lease rather than an operating 
lease.
    Do you view DOD's so-called UFC security standards, its own 
security standards, to be uniquely governmental?
    Mr. Morris. Well, there are definitely--the security 
requirements, that not only for DOD but for any Federal 
procurement that we are looking at now, have those kinds of 
inherent governmental requirements attached to that 
procurement. And that is part of the reason why we are 
required, when we do a procurement, that agencies pay for those 
security requirements up front.
    As to whether or not that throws the entire project into a 
capital lease versus an operating lease, I couldn't tell you 
for sure. I would have to look at what the total cost ratios 
are.
    And what we typically look for is what the use of that 
facility--whether that, in and of itself, can be used for other 
private-sector commercial operations. So that is usually the 
predominant factor in making a judgment call on whether that is 
a unique government facility or not.
    Although, I get your point. Certainly, the security 
requirements play into that.
    Ms. Norton. Just let me ask you straight away: How much of 
an asset, based on your expertise, has to be built to the 
unique specifications of the government before GSA, applying 
OMB guidance--they are going to be tougher than I am--
determines that the asset is not a general purpose asset?
    Mr. Morris. That is a really good question, Madam Chairman. 
I think, as I mentioned, the predominant analysis that we do is 
whether or not there are other viable commercial alternatives 
to that facility.
    It has a lot to--well, a couple of examples: land ports of 
entry. They are generally located on the borders, in remote 
locations. And there is not much of a private-sector function 
for those land ports of entry. And so I question, personally, 
in my own mind, why those aren't built to unique government 
specifications, and how do you meet the OMB guidelines for a 
capital lease versus an operating lease there.
    And so, there is a lot of twisting and turning that has to 
go in that, because it is hard to get the money to actually 
build and own those land ports of entry. But it is a difficult 
analysis to go through. But I would say, primarily, we look to 
see whether or not there is a commercial private-sector use for 
that facility.
    Ms. Norton. And in your expert judgment, is there any basis 
for classifying back-office-type DOD functions, people who do 
the same kind of accounting work and back-office work as other 
employees of the Federal Government? Is there any land-use 
reasons for classifying them differently when you go out 
looking for space?
    Mr. Morris. Not really, no.
    Ms. Norton. I am sorry?
    Mr. Morris. Not really, no.
    Ms. Norton. Could you explain to us--you mentioned up 
front, that an agency may have to pay up front. And I 
understand that generally. But how could they pay up front for 
the extra land needed to provide, for example, 148-foot setback 
in a lease? I am trying to, as you know, adhere to the OMB----
    Mr. Morris. That is a good point. Most of those costs are 
for--well, it depends upon the--I know you don't like to hear 
this, but it actually does depend upon the transaction. A lot 
of the time----
    Ms. Norton. I do like to hear that, actually.
    Mr. Morris. Sometimes we get land that is donated.
    Ms. Norton. You get what?
    Mr. Morris. We get land that is donated by a municipality 
because they are putting that up.
    Ms. Norton. Oh.
    Mr. Morris. Well, that brings down the cost of the project 
and allows us to put more into a facility. We take a no-cost 
option on a site that, if we are going to put that into the 
procurement----
    Ms. Norton. Yeah, but you see, Mr. Morris, I am not talking 
about the exceptional circumstance. You won't get any land 
donated by the District of Columbia, by Arlington County, by 
Fairfax County, by Montgomery County, by Prince George's 
County. You are not going to get any land donated by any of 
those folks, so I don't know why you would cite something as 
exceptional as somebody donates the land in some kind of quid 
pro quo. We are trying to deal here with a problem.
    Mr. Morris. Well, you are right, except in the example of 
the DARPA procurement for DOD. The State of Virginia ponied up 
some land to help bring the costs down there, and some dollars. 
When you look at the overall expense of the project, we stayed 
within the prospectus cap, but there were definitely costs that 
were subsidized by the State of Virginia to make that location 
possible.
    Ms. Norton. And I fully accept--not only do I accept, I 
compliment GSA for that kind of deal. And I say to you, Mr. 
Morris, isn't that kind of deal unusual?
    Mr. Morris. It is in the lease procurement area. We see it 
more often----
    Ms. Norton. It is in the lease area that we are looking at 
now.
    Mr. Morris. Right.
    Ms. Norton. Because Mr. McAndrew, you notice, hasn't 
offered to have buildings built to specification, because he 
knows OMB would never authorize that. He knows that DOD would 
never even ask for that. He knows that DOD has said these are 
functions suitable for office space, and that is the only 
reason you have it in the first place.
    Ms. Edwards?
    Ms. Edwards. Thank you, Madam Chairwoman.
    And thank you to our witnesses. I have questions 
principally for Ms. Armstrong and Mr. Morris.
    Ms. Armstrong, I just want to start with you, and I want to 
ask you about the prospectus for the DHS annex. On April 1st, 
GSA issued a solicitation for up to 1.136 million square feet 
of space to house three tenant agencies: Customs and 
Immigration, Under Secretary of Management, and Science and 
Technology. The offers were originally due on May 7th, which 
was just 4 weeks after the issuance of the solicitation, and 
then subsequently an additional week was granted.
    All the submissions had to include evidence of a final base 
building, zoning, subdivision, and site plan approvals and any 
other required local, State, or Federal Government approvals 
related to base building utilities, storm water management, and 
parking facilities, and landscape requirements.
    My experience with land use, and especially in the counties 
that I represent, is that there is no way that that could be 
completed within 4 weeks. And so I wonder if you could tell me 
why you would come up with that time frame for the completion 
of that kind of detail, given that in all of the surrounding 
jurisdictions the planning process can last anywhere from 12, 
at a minimum, to 18 months to put together what you have 
required.
    And so it seems to me that, at the outset, there are 
several jurisdictions that would never have been able to 
compete, really, for this prospectus. And so I am curious as to 
what your thinking is or was in determining that that would be 
a time frame for such a detailed prospectus and solicitation.
    And I wonder if you would go on to tell me why it is that 
there were some aspects of the prospectus that were actually 
changed, including the ceiling height and others. Were those 
things actually related to security? It is just hard to 
understand unless they were related to targeting the prospectus 
to a particular client.
    Ms. Armstrong. And, ma'am, I am going to have to apologize. 
That is not my area of expertise. I am with the Office of 
Infrastructure Protection, and that is a Chief Administrative 
Officer function, the prospectus that you are referring to. But 
I am sure our Leg Affairs people will make sure that the right 
person comes and answers your question.
    Ms. Edwards. Someone from DHS really needs to answer that 
question, because it is really hard to understand that.
    And as it is related to GSA, Mr. Morris, I wonder if you 
could tell me what the role is of GSA. First of all, who is 
your client? Who is your customer?
    Mr. Morris. Well, the customer that we are housing there 
would be the Department of Homeland Security. I mean, 
ultimately----
    Ms. Edwards. Is the taxpayer ever the customer?
    Mr. Morris. --it is the American taxpayer, absolutely.
    Ms. Edwards. Right. So, given that I think your ultimate 
customer is actually the taxpayer, can you explain to me why a 
prospectus would ever be put together that becomes then so 
narrowed and so restrictive that you actually impede 
competition, which doesn't work in the interests of the 
taxpayer?
    Mr. Morris. Well, with all due respect, you know, I am not 
on top of that particular procurement. But I do know that when 
we were structuring how offers could be received, it was 
actually done to try and increase competition.
    Rather than combining all of the requirements--if you are 
talking about the DHS consolidated procurement, rather than 
combining all of those requirements and saying somebody has to 
build us a million square feet, we broke that down into the 
component parts of the mission support in a complete effort to 
try and increase competition across the metropolitan area so 
that different developers who couldn't deliver one single total 
consolidated space could compete for parts of the requirement.
    Ms. Edwards. Let me read this to you, because this is your 
own language. All submissions had to include evidence of, and I 
quote, ``all final base building, zoning, subdivision, and site 
plan approvals, and site plan approvals on any other required 
local, regional, State, or Federal Government approvals that 
may be required relating to base building utilities, storm 
water management, and parking facilities, and landscape 
requirements.''
    How is it that you could ensure competition given those 
constraints in that time frame?
    Mr. Morris. I get your point. I would say that there were 
two factors in that. One was, we were looking for properties 
that, if not shovel-ready in the Recovery Act sense of the 
word, were close to it, so that any developers who wanted to 
offer needed to have permits in place or coming out of the 
ground with buildings.
    And, secondly, I know last year I had to testify before the 
Subcommittee on concerns that we have had and I know the 
Committee has had with holdovers and extensions for GSA leases. 
And we have a number of those mission components of DHS that 
are in leases that are expiring. And so one of the driving 
factors there was to avoid high-cost, short-term extensions and 
try and get a project up and developed so that we could move 
those folks into new facilities before the leases expired.
    Ms. Edwards. Mr. Morris, let me just say to you that, 
representing developers in Prince George's and Montgomery 
County, and particularly in Prince George's County, the fact 
that GSA continues to use this criteria actually ensures that 
Prince George's County will never, ever be able to compete for 
these leases, never. Because virtually every transportation 
facility, all of the land that is available, whether you are 
looking at studies that have been done by the Brookings 
Institution at land availability in this region--Prince 
George's County will simply never be able to compete.
    And I want you to explain to me how it is that, in a region 
where rent should be treated similarly around this Beltway, 
where the prospectus should be clear from one solicitation to 
the next solicitation without changes being made at the last 
minute that seem to be targeted to a particular developer or 
development, you are effectively screening out an entire 
county, and that means that you are screening out competition.
    And I can't see how, if the taxpayer is your customer, that 
you are doing a good deal for your customer with that kind of 
screening. And it has to change.
    Mr. Morris. I appreciate what you are saying to me.
    Ms. Edwards. And appreciation isn't an answer. GSA has to 
come up with an answer for why it has created the kind of 
disparity in this region that has left an entire community left 
out of GSA competition.
    And this description of this prospectus, given what is 
required in the zoning and planning process, means that one 
jurisdiction would never be able to compete for this 
prospectus.
    And can you just tell me, why a change from a 9-foot to an 
8-foot ceiling?
    Mr. Morris. I am not familiar with the change in the 
ceiling height.
    Ms. Edwards. I want to know why GSA changed a requirement 
in the prospectus from a 9-foot ceiling to an 8-foot ceiling. 
Is that to facilitate one building over another building? One 
area over another area? It is important for GSA to answer these 
questions. It doesn't actually make sense to me. Is it a safety 
consideration? Is it to accommodate fire and sprinkler systems? 
GSA has to answer these questions.
    Mr. Morris. We will get you an answer for that.
    Ms. Edwards. Thank you.
    I want to ask you, as well, do you believe you have any 
responsibility to address the disparity that I have described 
in the treatment of these jurisdictions?
    Mr. Morris. Yes, ma'am. You know, I know I am not going to 
convince you of this, but there are a number of Federal leases 
in Prince George's County for----
    Ms. Edwards. I have actually gotten the leases from GSA. We 
have looked at them. We have analyzed them. Independent sources 
have analyzed them. And, as I described before, I am not 
talking about warehouse space. And we all know that. We know 
that there are leases in Prince George's County, but we also 
know that a substantial number of them are warehouse space, not 
commercial, class A office space. And that is what we are 
talking about because that is what facilitates economic 
development.
    And I will not sit on this Subcommittee again to hear GSA's 
explanation without action. And I think that if we can't get it 
out in a hearing, then it is going to be done in legislation.
    Can you just answer for me whether you can provide an 
analysis that justifies the rent cap differentials in Maryland, 
D.C., and Virginia for new construction? What is the 
justification for that?
    Mr. Morris. I can't give you that right now, but I can get 
it for you.
    Ms. Edwards. I will expect that on the record, as well.
    Also, can you confirm that the final Nuclear Regulatory 
Commission lease for the new building in Montgomery County is 
within rent cap?
    Mr. Morris. I can't confirm that right now, but I can get 
you that information.
    Ms. Edwards. I would appreciate an answer on the record.
    And then lastly, at what level are changes to a previously 
issued solicitation authorized? What is GSA's role in any 
change in that solicitation? What is the review process for the 
solicitation? And is prospective bidding expected to favor 
specific locations? And what information can you confirm that 
the changes that are made to those locations?
    Mr. Morris. I am sorry, you lost me a little bit. I know--
--
    Ms. Edwards. On the end, if prospective bidders feel that a 
particular change favors a specific location, what information 
does GSA then provide to confirm that the changes are made 
irrespective of location? What is there in the record that a 
developer can look to to say that GSA did this aboveboard and 
not to favor a specific location?
    Mr. Morris. That is a hard question for me to answer. I 
think if we have a change in a solicitation, there is an 
amendment that is issued to the marketplace. Anybody that is 
bidding explains what the change is and why we are doing it.
    In terms of your question that, whether or not it is 
transparent and aboveboard, that it is not favoring anybody, I 
mean, that is not the point of what the changes are. But I know 
you are not buying that from me just saying it. So I don't 
think I am going to be able to answer your question here, 
satisfactorily anyway.
    Ms. Edwards. Thank you, Madam Chairwoman.
    Ms. Norton. Well, thank you, Ms. Edwards.
    I am going to ask you, within 30 days, Mr. Morris, to 
submit to this Committee answers to the questions the lady from 
Prince George's has raised. For example, why the ceilings were 
lowered from 9 to 8, what the justification--or whatever was 
that figure; her question on the Nuclear Regulatory cap. We 
will submit a letter that details her questions.
    Mr. Morris, we would like, the Committee also would like, 
you to break down those leases that Ms. Edwards says she 
believes were largely warehouse leases. We need to know about 
those leases, because it comes close to being an insult to a 
county that is one of the highest-income counties in the United 
States if the Federal Government is seeking to make it a 
repository for warehouses.
    Ms. Edwards. Madam Chairwoman, if you would yield for a 
minute. I would like to submit for the record a study that was 
done actually in September 2007 by the University of Maryland--
they have updated some of this--entitled ``GSA Leasing in the 
Greater Washington Metropolitan Region'' that actually 
documents the space throughout the region, what kind of space 
it is, and where it is located.
    Ms. Norton. So ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6587.008
    
    [GRAPHIC] [TIFF OMITTED] T6587.009
    
    [GRAPHIC] [TIFF OMITTED] T6587.010
    
    [GRAPHIC] [TIFF OMITTED] T6587.011
    
    [GRAPHIC] [TIFF OMITTED] T6587.012
    
    [GRAPHIC] [TIFF OMITTED] T6587.013
    
    [GRAPHIC] [TIFF OMITTED] T6587.014
    
    [GRAPHIC] [TIFF OMITTED] T6587.015
    
    [GRAPHIC] [TIFF OMITTED] T6587.016
    
    [GRAPHIC] [TIFF OMITTED] T6587.017
    
    [GRAPHIC] [TIFF OMITTED] T6587.018
    
    [GRAPHIC] [TIFF OMITTED] T6587.019
    
    [GRAPHIC] [TIFF OMITTED] T6587.020
    
    [GRAPHIC] [TIFF OMITTED] T6587.021
    
    [GRAPHIC] [TIFF OMITTED] T6587.022
    
    [GRAPHIC] [TIFF OMITTED] T6587.023
    
    [GRAPHIC] [TIFF OMITTED] T6587.024
    
    [GRAPHIC] [TIFF OMITTED] T6587.025
    
    [GRAPHIC] [TIFF OMITTED] T6587.026
    
    [GRAPHIC] [TIFF OMITTED] T6587.027
    
    [GRAPHIC] [TIFF OMITTED] T6587.028
    
    [GRAPHIC] [TIFF OMITTED] T6587.029
    
    [GRAPHIC] [TIFF OMITTED] T6587.030
    
    [GRAPHIC] [TIFF OMITTED] T6587.031
    
    [GRAPHIC] [TIFF OMITTED] T6587.032
    
    [GRAPHIC] [TIFF OMITTED] T6587.033
    
    [GRAPHIC] [TIFF OMITTED] T6587.034
    
    [GRAPHIC] [TIFF OMITTED] T6587.035
    
    [GRAPHIC] [TIFF OMITTED] T6587.036
    
    [GRAPHIC] [TIFF OMITTED] T6587.037
    
    Ms. Norton. And the staff will do its own analysis.
    And I am afraid GSA is going to have to justify how that 
happened systematically, if that is what the document shows.
    I want Ms. Edwards to know, as I indicated earlier, I 
believe that GSA has allowed the process to be taken over by 
its clients, just as it did in the District of Columbia. And 
the clients said to GSA, ``You know what? I like it on K 
Street.'' We have had documentary evidence that the District of 
Columbia, much smaller territory, not a lot of places to go, 
but we have had documentation to show that people prefer to be 
in the very center of town rather than places like NoMa, which 
is close to the Senate, where in fact there are other Federal 
facilities, where the Federal Government put up--the only time 
where the Federal Government helped pay for an extra Metro 
facility.
    So it rings a bit too familiar to hear what the gentlewoman 
from Prince George's County is saying. And it simply requires 
us to look more closely at how GSA handles its role as an 
agent.
    Now, if I go to look for a house and I am paying for it, 
then, of course, I can direct the agent to do whatever we have. 
GSA, for as long as I have been on this Subcommittee, has 
forgotten its role as caretaker of taxpayer funds and decided 
that whatever an agency wanted to do, it should do.
    We are so concerned with evidence of the kind that I have 
heard of since I have been on the Committee and some of what 
you, yourself, have raised, that in a reauthorization of the 
entire statute, first time ever since the GSA was created, we 
are considering language that would tighten what GSA can or 
cannot do. We like GSA to have--because, as a real estate 
agent, to have that broad authority. We don't want to take away 
that authority.
    Our own analysis tells us that part of the problem is that 
GSA, in dealing with peer agencies, has a hard time regarding 
itself as a peer and, therefore, quickly dwarfs itself and 
forgets that it is the only expert agency in real estate for 
the United States.
    So we think we have to strengthen its hand, when it, in 
fact, represents agencies. Some of this is because GSA just 
doesn't stand up to agencies. And others is because when the 
agency looks at GSA, simply says, ``Who are you?'' You asked 
about the customer and the client. They say, I am the client, 
and I am as much the client as if you were a commercial real 
estate agent, just as if you are the real estate agent for the 
United States Government. And excuse my French, but the 
taxpayers be damned, because that is what has happened. When 
you take everybody and move them into the center of D.C., where 
the cost differential between K Street and NoMa is sometimes 
$10 per square foot, that is what it sound like to us.
    Now, when it comes to Prince George's County, the fact that 
they have found it harder to lease probably means they are more 
competitive, and yet they have not been able to get the leases. 
We don't speak for leases for anybody. I can't even speak for 
leases for the District of Columbia.
    We happen to be in a kind of catbird seat, because most 
agencies want to be located right here where the Congress is; 
they consider that is where they want to be. So they want to be 
here in the first place.
    And yet, as you yourself will attest, Mr. Morris, we have 
never, ever indicated any preference for locating agencies even 
in my own district and even though I am Chair of this 
Committee. I could never say, given what the statute says about 
competition, ``As between Ms. Edwards's district and my 
district, I want it here, and I hope you all understand that.'' 
I could never wink, wink, do that. And you know that would be a 
violation of Federal law, Mr. Morris.
    Mr. Morris. Yes, ma'am.
    Ms. Norton. In the same way, I have to say, that I regard 
it as hugely unfair that this county, which, if anything, has 
made itself into a--by virtue of the skilled population it has 
had, made it into a very favorable location, in many respects, 
would find it so hard to obtain leases.
    And, I mean, we are going to help you out in the 
reauthorization, but we are going to have to ask you to help us 
initially by answering the questions. And we will submit those 
questions after consulting with the gentlewoman from Prince 
George's County and will be pleased to receive them.
    Could I just thank this panel? I know we have kept you way 
over time, in part because the Subcommittee has been very 
troubled by this.
    Mr. McAndrew, we hope we didn't subject you to unfair 
questioning. We know you were at the center of this dispute. 
And we didn't expect you to come forward to say, ``We hold up 
our hands. Just do anything you want to.'' You have to respond 
with the guidance that you now have on the books. We very much 
appreciate that. Even given the difficulty, we had to make sure 
that, being a witness, that you have readily come forward, have 
testified candidly and forthrightly. We didn't expect you to go 
outside of where you are now.
    All I am asking, Mr. McAndrew, is that you work with us 
more closely so that we can, in fact, make sure that, when you 
talk about waiver, people understand, for example, waiver means 
waiver and not simply add the cost on the other side on 
mitigation.
    We want to make sure, since the GSA is your agent, that 
there is, in fact, as much--the presumption should be that, if 
we are talking about employees whose mission is similar, there 
is a rebuttable presumption that they should be handled 
similarly. So, as with other agencies, it seems to us DOD ought 
to be able to come forward and say, we need this facility to 
be, as Mr. McAndrew says, perhaps not 148 but some other 
distance. Seems to me we ought to be wide open to that.
    At the same time, DOD, GSA, and this Subcommittee will be 
subject to terrible criticism if we accept the notion, Ms. 
Armstrong, that any standard applies across the board to any 
agency of the United States today.
    So I found your testimony to be very helpful. I want to 
dismiss, with great appreciation, this panel and to call the 
next panel, with apologies that you have had to wait so long 
but with every assurance that we are equally--you may be 
dismissed, and thank you again for coming--with every assurance 
that the next panel is just as important to this Subcommittee.
    The next panel, panel three, is very important to us. We 
never do a hearing just based on government witnesses. We have 
to know compared to what and compared to what expertise that 
the government may or may not bring.
    Barbara Nadel, principal of Barbara Nadel Architect; Eve 
Hinman, president, Hinman Consulting; Maureen McAvey, senior 
vice president, Urban Land Institute.
    Let's begin with Ms. Nadel.

TESTIMONY OF BARBARA NADEL, PRINCIPAL, BARBARA NADEL ARCHITECT; 
   EVE HINMAN, PRESIDENT, HINMAN CONSULTING; MAUREEN MCAVEY, 
          SENIOR VICE PRESIDENT, URBAN LAND INSTITUTE

    Ms. Nadel. Chairwoman Norton, Members of the Subcommittee, 
good afternoon. My name is Barbara Nadel, FAIA, principal of 
Barbara Nadel Architect in New York City, and a member of the 
American Institute of Architects. Thank you for this 
opportunity to appear before you today.
    I specialize in building security and design of civic 
buildings. I have worked with over 40 Federal, State, and local 
government agencies. I recently chaired the AIA's 21st-Century 
Embassy Task Force, which studied integrating design and 
security in U.S. embassies. As a result of our report, the 
State Department will create a Design Excellence Program. I am 
also editor-in-chief of ``Building Security: Handbook for 
Architectural Planning and Design,'' considered the industry 
standard for building security.
    Federal agencies must protect American personnel, 
buildings, and critical assets from terrorism at home and 
abroad. DOD and GSA have developed security standards: the 
Unified Facilities Criteria, or UFC; and Interagency Security 
Criteria, ISC, respectively. They are a baseline for 
determining a design response to threats.
    Each building is different and presents different security 
challenges. Building owners must consider risk assessment to 
determine threats and identify a level of protection based on 
good threat intelligence. Architects can design customized 
features to reduce vulnerabilities.
    Owners must have the flexibility to raise and lower 
security standards. For example, normal operations may be in 
place most of the time, but for a VIP visit or important 
anniversary with heightened tensions, owners can close streets 
to achieve greater setbacks or standoff distance, deploy more 
personnel, and limit access. This allows a wiser use of limited 
resources and taxpayer dollars.
    I would like to address three key areas of the UFC: 
standoff distance, parking, and glazing.
    Standoff distance is a response to mitigate damage from a 
vehicle-borne improvised explosive device, or VBIED. Every foot 
between an explosive and the building exterior can mitigate the 
impact of an explosion.
    Agencies require different standoff distances. GSA and ISC 
call for 50 feet, while the State Department requires 100 feet 
due to repeated VBIED attacks on American personnel and 
embassies in foreign countries. In contrast, DOD calls for a 
standoff between 82 and 148 feet for leased buildings occupied 
by 50 or more DOD personnel and between 33 and 82 feet for 
buildings with 11 or more personnel.
    This means that a military recruiting office in a suburban 
strip mall or in the heart of Times Square must have between 
33- and 82-feet standoff--unrealistic for existing urban 
buildings.
    When the State Department cannot achieve a 100-foot 
standoff, they make facades and building exteriors more robust 
and use blast-resistant exterior walls and windows. DOD could 
be able to do the same domestically.
    As for parking, the 1993 World Trade Center bombing caused 
by a truck bomb in the underground garage illustrates the need 
for appropriate security. Parking areas should have robust 
inspection policies. Vehicles should be screened for 
explosives, perhaps using bomb-sniffing dogs. Rejection lanes 
will prevent unauthorized vehicles from driving into the 
garage. And parking may be restricted to authorized employees 
only.
    Regarding glazing, the 1995 Oklahoma City bombing prompted 
GSA and DOD to research how glass behaves during an explosion, 
as many fatalities occurred from flying glass and debris. 
Laminated glass, consisting of glass sheets bonded to film, 
reduces the likelihood of flying glass. Blast windows absorb 
blast energy and are suitable for high-risk, high-profile 
buildings such those in D.C. Architects should have the 
flexibility to design the most appropriate window and door 
systems for project needs.
    In conclusion, building security should prevent mass 
casualties, minimize injuries, protect assets, mitigate risk, 
and enhance resilience. Owners, architects, and security 
personnel can assess the risks and options most suitable and 
affordable for each facility and, in many cases, develop 
alternative design strategies to ensure the appropriate levels 
of protection.
    Thank you for the opportunity to provide testimony on this 
important issue. I would be happy to answer any questions this 
Subcommittee may have.
    Ms. Norton. Thank you very much, Ms. Nadel.
    Is it Ms. Hinman?
    Ms. Hinman. Yes.
    Ms. Norton. Ms. Hinman, also an architect, we are pleased 
to receive your testimony at this time.
    Ms. Hinman. Actually, I am a structural engineer. So I 
actually design buildings to resist the effects of explosive 
attack.
    Thank you, Madam Chairwoman and everyone else, for the 
insightful comments I have been listening to. I feel like you 
have all stolen my thunder here.
    The DOD standards require that virtually any office 
building occupied by DOD personnel needs to be protected 
regardless of whether it is leased or whether it is owned, 
whether it is new or whether it is existing. This differs from 
the Interagency Security Council, which has been using two 
separate criteria documents: one for owned facilities, 
federally owned facilities; and one for leased facilities.
    The one developed for leased facilities was developed with 
input from the private sector, from property owners, and is, 
for existing buildings at least, considerably more lax than the 
criteria for Federal-owned properties.
    Besides the differences in their approach to leased versus 
owned buildings, the DOD and ISC have another difference of 
note. While the DOD standards were originally developed with 
the intent of protecting service men and women working and 
living on military bases, the ISC criteria was tailored to 
Federal buildings and courthouses located in urban areas. Now, 
military bases are separated from the community, whereas 
Federal buildings are enmeshed in the community. And because of 
this, the DOD standards are not well-suited to leased 
facilities that are within communities.
    In fact, the DOD standards impose heavy penalties, in terms 
of building hardening, on construction that is not able to meet 
the large, mandated building setback requirements or which has 
building features which are common for office buildings, such 
as interior garages and exterior arcades at the building 
entrance.
    In short, the DOD standards are very good at protecting 
buildings against explosive attack but are very onerous to use 
for conventional office building construction.
    I am going to skip a little bit because I have a couple of 
comments I want to make at the end.
    So, although there are similarities between the two 
documents, there are some significant differences. In 
particular, the fact that there are such significant 
differences between protection levels afforded DOD versus non-
DOD Federal employees working in leased office space shows that 
there is some benefit to exploring ways to provide levels of 
protection which are both feasible and more equitable.
    I also would like to make a couple of comments, in that we 
are working on two projects now in the Midwest which are GSA-
owned buildings with significant DOD tenants. And the risk 
assessments--and these are back-office DOD functions. And these 
buildings have been mandated by the DOD, by risk assessments, 
to be upgraded to meet DOD requirements. And it has been--it is 
not an easy job. And, in one case, it looked like we were going 
to have to upgrade every single connection in the building for 
progressive collapse, based on a prior study.
    I would like to also mention that the criteria documents 
are under revision right now. As was said before, a new version 
of the ISC criteria was released last month. And the DOD has 
their UFC criteria being finalized as we speak, and that has 
not been issued. My understanding is that these two documents 
are beginning to come together.
    And it is true that DOD does sit on the ISC committee, but 
I understand that one of the reasons for discord between the 
ISC and the DOD has been that the DOD mandates that you design 
for the actual blast pressures on the building, whereas the GSA 
allows for designing to reduce, sort of, artificial loads. And 
I understand that this disagreement has been resolved. It look 
like GSA is going to design for actual pressures now.
    So I think we need to see what result, what that leads to 
in the future. And it may require additional study by this 
Subcommittee to determine that.
    Ms. Norton. Well, thank you very much, Ms. Hinman. And 
excuse me for calling you an architect. It is a very honorable 
profession----
    Mr. Hinman. It is OK.
    Ms. Norton. --but you are a structural engineer and a 
security expert.
    Mr. Hinman. Yes.
    Ms. Norton. And our final witness is Maureen McAvey, who is 
senior vice president of the Urban Land Institute.
    Ms. McAvey?
    Ms. McAvey. Thank you, Chairwoman Norton, and thank you, 
Congresswoman Edwards, for remaining today.
    I am Maureen McAvey, executive vice president of the Urban 
Land Institute. ULI is a global, nonprofit education and 
research institute. Its mission is the leadership and the 
responsible use of land and in creating and sustaining thriving 
communities. We were established in 1936, so have quite a track 
record. ULI has offices in over 50 metropolitan areas and 
counts over 30,000 professionals as members, across the 
spectrum of the real estate industry, including real estate 
developers, investors, lenders, architects, and public 
officials.
    I would like the broaden the scope of the discussion for a 
few moments today and concentrate on three areas. The first is 
the renewed emphasis on the significance of urban livability. 
The second is the nexus of Federal security guidelines, 
federally leased space, and sustainable communities. And the 
third is the need to reflect on the long view of urban 
development.
    As we considered this testimony, we clearly thought about 
the role and the benefits that Federal occupation, if you will, 
in the good sense, can play within communities, not just the 
costs.
    First, the renewed emphasis on the significance of urban 
livability. U.S. census data now shows that residents are 
moving toward urban centers in many communities. Over the last 
20 years, residential development is up substantially within 
central cities and in close-in suburbs. In addition to the 
wider market acceptance, these mixed-use compact developments 
reduce vehicle trips, reduce overall miles driven, and produce 
fewer greenhouse gas emissions, and this will have a 
compounding effect over time.
    These communities rely on an attractive public realm, and 
require that employees, neighbors and visitors clearly want a 
community that is safe as well as inviting and welcoming. I 
might add that these communities, as we have seen in this last 
recession, hold value better than alternative communities.
    Second, the nexus of Federal security guidelines, federally 
leased space and sustainable communities. We all want Federal 
employees and visitors to be safe, but as guidelines are 
considered and costs are considered, the atmosphere in which 
employees and visitors work must also be considered.
    Chairwoman Norton, you raised several points in your 
opening testimony, and we would echo those points. First, 
locations should be considered which are highly accessible and 
are near workforce and affordable housing.
    Second, the opportunity for development and Federal 
properties to serve as a development catalyst in communities is 
particularly important and should be really considered.
    Third, the opportunity to consider buildings or sites which 
are underutilized currently should be considered.
    Fourth, as was mentioned so well by Congresswoman Norton, 
the availability and access to public transportation.
    The last point I would like to make is regarding the long 
view of development. Federal policies can encourage real 
sustainability in communities. People leave cities or stay in 
cities not because of threats and concerns about terrorism. 
Employees don't leave often because of threats of terrorism. 
They stay in cities, and they come back to cities because 
cities work. They provide good jobs, good transit and good 
residential choices. Federal employment can be a significant 
contributor to this equation.
    One of the things that struck us in preparing this 
information is ULI presented the J. Nichols award to Senator 
Daniel Patrick Moynihan shortly after 9/11 occurred. As we gave 
the award to Senator Moynihan only weeks after 9/11, he said, 
and I would quote, ``Buildings--particularly public buildings--
should serve a greater purpose than to simply provide shelter. 
They should be built to instill pride among citizens who use 
them, serving as a way of saying who we are. This is a moment 
not to be intimidated. The only way the terrorists can win is 
if we change the way we live, and a lot of us live in cities. 
These acts won't change our civilization.''
    And I would add these acts won't change our civilization 
unless we back away and don't thoughtfully balance security 
with other community goals.
    Thank you for giving me the opportunity to testify, and I 
would be happy to answer any questions.
    Ms. Norton. Thank you very much, Ms. McAvey.
    Ms. Norton. All of you have given very important testimony 
that requires me to ask you some questions.
    For example, Ms. Nadel, we note that in your testimony the 
higher the risk, the higher the level of protection, you say.
    Given the familiarity that your testimony shows that you 
have with the two government security standards that we have 
discussed today, do you believe the levels of protection for 
the risks involved are roughly equivalent, or that it is 
justifiable to have separate and distinctly more stringent 
standards for one set of back-office employees of the Federal 
Government than for others?
    Ms. Nadel. Just for clarification, do you mean UFC versus 
ISC?
    Ms. Norton. I do, yes. Those are the two sets.
    Ms. Nadel. I studied the UFC quite carefully over the 
weekend--there was a matrix chart that indicated facilities 
with a controlled perimeter and those without, and then there 
were columns on the level of protection and the circumstances 
for 82 feet and 148 feet.
    What I noted, as I recall, was that it said low level of 
protection, and correct me if I am wrong--is it said low level 
of protection for----
    Ms. Norton. I am looking at it. Yes, low level. Yes.
    Ms. Nadel. I thought that was unusual because my read of 
what they call ``inhabited buildings''--it sounded like office 
buildings. They are calling it a low level of protection, and 
they are giving them an 82-foot standoff or a 148-foot 
standoff. Yet if I am remembering the chart correctly----
    Ms. Norton. Yes, we are looking at it. You are remembering 
it correctly. For primary gathering, they use low. For an 
inhabited building, they use very low.
    Ms. Nadel. Inhabited, I think, is about 11 people or less.
    Ms. Norton. I see. So all of this is low. We don't see any 
highs anywhere or even mediums.
    Ms. Nadel. You know, in my familiarity with the State 
Department and the fine work that they do on our behalf 
overseas, they require a 100-foot standoff, so I am not sure.
    Ms. Norton. So they, themselves, you are saying, use the 
word ``low,'' and yet they are requiring these setoffs that are 
not required in the other set of standards. Those are the kinds 
of issues we are trying to get to. If we cannot articulate the 
difference, if they can't articulate the difference, it follows 
that the average person who pays for this increased cost will 
not be able to do so.
    Do you have an answer, Ms. Hinman?
    Ms. Hinman. Yes, I do.
    For the State Department buildings, it is true. The setback 
is 100 feet, but those are heavily fortified buildings. Those 
are very special buildings with thick concrete walls and really 
thick ballistic and blast-resistant glass. So they are heavily 
fortified; whereas, a low level of protection that the DOD is 
talking about is basically the distance--it takes 148 feet, 
according to that document, in order for a small, rather weak 
building to not be terribly impacted.
    Ms. Norton. To put it another way then, Ms. Hinman, if they 
were your funds, as a security expert, as a structural 
engineer, what security countermeasures would you invest in for 
these back-office DOD employees? Would they be any different 
than what you would advise GSA to do for similarly situated 
employees?
    Ms. Hinman. Well, I would say that I think we have to be 
very pragmatic here. I think the first job for an existing 
building is you need to maximize the standoff as best you can, 
and then you need to control the access of vehicles and people 
onto that property. If you do that, you have done good without 
even touching the building. Then I would put in antishatter 
film for the windows and, lastly, if justified, incorporate 
structural hardening.
    Ms. Norton. The last two, antishattering and hardening, is 
this even for people who are doing accountant, paper-pushing 
work? If these people are doing accounting the way people are 
doing accounting for GSA, how could you justify finally going 
to shatterproof glass?
    I understand the first things you said. It is very 
important what you are saying because you are saying there are 
things you can do that don't even touch the building, but 
remember, my question had to do with similarly situated 
employees. ``I am an accountant, except I have been hired for 
DOD through OPM instead of for GSA.'' So, if I am a taxpayer or 
if I am Chair of this Subcommittee, I have got to be able to 
say to people, this is why I think there should be shatterproof 
glass for DOD accountants and not for accountants in the CIA.
    Ms. Hinman. Right. Well, when I use the term ``antishatter 
glass,'' I am talking about a very minimal retrofit to the 
buildings.
    Ms. Norton. But why should there be any retrofit for a 
building full of accountants who happen to have ``defense'' 
before their names?
    Ms. Hinman. Well, because it is a cost-effective measure 
that does reduce the hazard----
    Ms. Norton. What hazard do they have that accountants in 
other Federal facilities do not have? What hazards do they have 
that the IRS, which has been hit by an airplane, does not have?
    Ms. Hinman. Well, I will say the other Federal employees 
are protected using antishatter glass.
    Ms. Norton. Excuse me?
    Ms. Hinman. Other Federal employees are protected using 
antishatter glass as well as----
    Ms. Norton. Well, I can tell you for sure, Ms. Hinman, that 
all other employees are not protected by the use of 
shatterproof glass. There may be some who are and some who are 
not.
    Are you suggesting that that is the standard for all 
Federal employees in the United States today, in all areas of 
our country?
    Ms. Hinman. Well, there are a lot of injuries that occur in 
explosions, and it is a fairly easy fix. I think the problem--
--
    Ms. Norton. It is only an easy fix, Ms. Hinman, if you are 
not paying for it. We are now talking about fixes in light of 
an out-of-control deficit and what has been called the ``Great 
Recession.'' So we are not looking for things to spend money on 
unless we can justify them.
    Ms. Hinman. Well, as I said----
    Ms. Norton. I would like to have shatterproof glass in my 
house. I want to tell you, Ms. Hinman, that I live on Capitol 
Hill, and the Capitol Hill Police will police up to a certain 
portion of Capitol Hill based on a risk assessment. My house 
and some other houses of Members, because they are so close to 
Capitol Hill, are within that perimeter. It is a perimeter that 
goes east-west only so far. It is not only because there are 
Members who live there, it is because of other facilities that 
are there.
    I will tell you, when I see that Capitol Police go by, you 
know, I would like to have some shatterproof glass, too, but I 
don't go out and spend the money on shatterproof glass just 
because I know I am within a perimeter. If I don't do that for 
myself, I have an obligation to guard the taxpayers' money in 
the same way for employees.
    So we are not asking for your structural engineering 
expertise, because I understand that you could, in fact, advise 
me on how to do that. I am asking for your cost-benefit 
expertise.
    Ms. Hinman. OK. Well, I would like to mention that the 
first two items that I listed had nothing to do with upgrades 
to the structure, and those would be my first priority. And 
then--if there were funding available, then I would consider 
the other two. Those would be a lower priority for me.
    Ms. Norton. Ms. Hinman, I am going to move on. I accept 
what you say, but, again, I bring you back to not what might be 
done, but to what the hearing is all about. It is about 
similarly situated government employees, employees at the CIA 
who are doing accounting, who come under the GSA type, and 
employees at the DOD who are doing the same kind of accounting 
work.
    So what we have got to do is to justify people who are--
forgive me, that is a terrible word, it is a pejorative word--
but they are pushing paper, Ms. Hinman, and the taxpayers want 
to know why people--they don't like Federal employees as much 
as they should. We are not trying to give them another reason 
to dislike us because people who push paper, doing the same 
thing, get more protection than people who don't.
    Ms. McAvey, given what we do know about the need for 
protection, and given your very important testimony about land 
use patterns, about government encouraging collocation, about 
urban planning and modern notions of urban planning and how 
they can be countermanded by certain kinds of regulations, 
don't you also have to take into effect 9/11 and what that 
meant?
    Your use of compact development is what makes me ask that 
question. In post-9/11 America, especially in this region, 
would you believe that compact development is still practical? 
How would you resolve the research about compact development in 
light of the security needs that have been raised post-9/11?
    Ms. McAvey. Thank you.
    We have seen a significant uptick in desirability of 
compact development not only in central cities themselves, but 
in urban villages, in transit corridors, in transit-oriented 
development areas, et cetera, in suburban areas, since 9/11, 
since 2000 when we have data. Already we are starting to see 
the 2010 data that shows that there is a significant 
desirability of the market to move into these types of 
communities, into more compact settlements, not by everyone, 
but certainly by many.
    If I might just add, there has been a considerable amount 
of study that has been done on office buildings in Manhattan 
and by large tenants and by large users both in lower Manhattan 
and midtown Manhattan in terms of how they have looked at 
increasing security over time in their buildings, and, after 
the immediate reaction to 9/11, what they have done over time 
in those buildings. It might be worth the Subcommittee looking 
at this information, because they had to weigh, of course, the 
costs and benefits to their employees and to the visitors to 
their buildings.
    Ms. Norton. And when they have a bottom line to look at, 
when they are not spending somebody else's money, they then do 
security in a much more cost-effective and analytical way.
    Ms. McAvey. Well, in many cases they have judiciously, I 
would say, from what I know of some of these studies, chosen to 
do some things and not others because they simply thought 
that--I guess in their own risk assessment, to use those words, 
they felt that some things were not justified.
    Ms. Norton. Well, there are some commonsense things that 
Ms. Hinman said. You can control who uses your parking, you can 
control who comes into your building, all without hardening the 
building, all without spending money on shatterproof glass, all 
without 142-foot setbacks that puts off base huge parts of the 
United States of America now where Federal office space is 
located.
    My office has just come to me about something that has to 
be done before 6 o'clock. I am going to ask the gentlewoman 
from Prince George's County if she would continue with her 
questions. If, as I suspect, I will not be back, if she would 
close the hearing. I leave the Chair in her hands. I am even 
going to hand her the gavel.
    Ms. Edwards. [Presiding.] Thank you, Madam Chairwoman.
    I won't be long, and I know you all have had quite a long 
afternoon. I really appreciate your testimony, and I am 
actually glad I stayed for your testimony.
    Part of the reason is because I want to get to what 
architects and engineers are thinking about building 
structures, because the questions that we raise don't just come 
up with Federal buildings. There are a lot of States and State 
facilities that are now taking into consideration these 
security concerns, and we can't, you know, fortify every single 
building that all of our State and municipal employees work in, 
including our Federal employees.
    So I wonder, from AIA's perspective, if you could 
describe--and maybe Ms. Hinman as well--some sort of design 
features and things that can be done from an architectural 
perspective, which actually wouldn't turn us off from a land 
use perspective, to secure buildings. I am thinking, you know, 
the buildings that I have seen now where along the curbsides 
you have--I don't know what they are--posts and columns and 
things like that. You know, they are not unappealing to the 
eye, but they still provide some level of security that isn't a 
148-foot setback.
    So, if you could, describe some of those kinds of features 
that could meet minimum security guidelines and that could go 
across Federal agencies, including most DOD functions, that are 
not, you know, high level of security military functions.
    Ms. Nadel. Thank you for this opportunity. A couple of 
things come to mind.
    Let me just make a general statement that a comprehensive 
security approach integrates design, which is what I do; 
technology, which includes electronic surveillance, cameras, 
access, and so forth; and operations, which are the policies 
and procedures that building owners put in place--building 
owners, whether it is an agency or a landlord, whoever runs 
that building--and that all three of these elements come 
together and work together to enhance security. It is not just 
one element alone. So these elements are really important when 
it comes to sites which don't have the luxury of deep setbacks.
    I think, just to go back a moment to something that Eve 
said about embassies, my friend and colleague Eve, there are 
embassies around the world that don't have concrete walls, that 
don't have setbacks. I think of Rome, if anybody has been to 
the Rome Embassy. I think of the Paris Embassy, which is right 
at the Champs-Elysees, next to a major French government 
building and right on the street, in a very busy section of 
Paris; and the current London Embassy, but, you know, they have 
a new London Embassy which has just been announced. So, in 
those instances in urban areas, you have electronic 
surveillance; you have security personnel, but the buildings 
are an integral part of the urban fabric.
    Now, to answer your question, I guess starting from what we 
call the site perimeter, we can have bollards, which are those 
small posts, and they are much more aesthetic than the concrete 
Jersey barriers that sprouted up after 9/11. There are 
different ways to do that, but what a lot of building owners, 
say, in lower Manhattan have done, including at the new World 
Trade Center site, is use landscaping. GSA is a big proponent 
of using landscape for what we call ``transparent security,'' 
and I am a big advocate of that as well. It is security that is 
not visible to the public eye. It is there, but it is not 
overbearing like a fortressed America.
    So, to use the landscaping on the site might mean berms, 
which are changes in levels of planting, landscaping, trees, 
that prevent a car or a vehicle from ramming straight onto the 
building. That is a major concern.
    Then the surveillance for the VBIEDs shouldn't be a 
surprise in our cities at this point.
    Street furniture can also prevent vehicles from ramming 
into a building, but that enhances the site, so people can go 
there for lunch, and it is a pleasant place to be.
    The lobby security is also very important because that 
controls access to who gets in the building. The lobby can be 
very vulnerable for a suicide bomber, for example, before they 
get to the screening area.
    Also, where certain rooms and spaces are placed within the 
building maters. I think somebody earlier mentioned that 
sensitive areas may not need to be in an area facing a street 
that, if there were an explosion, would be impacted. So, 
perhaps, more of the sensitive areas would be further on in the 
building or away from some streets.
    Then there are the mechanical systems, because, we have 
been talking today, about ``standoff'' which basically refers 
to a vehicle bomb explosion, but there is a lot of talk about 
chemical biohazards, and standoff really doesn't do anything 
for chem-bio.
    So, in the big picture, there are site issues, how the 
landscaping goes, trees. It doesn't have to be a barren plaza. 
It is how the lobby is designed and how access is controlled.
    I would be remiss if I didn't mention the exterior walls, 
to chime in on what Eve had mentioned--the windows, of course--
but within the building where the exits are placed, and we 
learned a lot of that from the events of 9/11, because the Twin 
Towers were designed during the 1960's, and building codes were 
quite different at that time, and so were building materials. 
That building would never be designed today.
    Ms. Edwards. So the point, though, is that there are a 
range of different considerations that could be given that 
provide low levels of security that could be applied across the 
board to an agency, whether it is the Internal Revenue Service, 
or if it is a leased facility housing DOD workers who are not 
central to, you know, high levels of security or military 
functions; isn't that correct?
    Ms. Nadel. Yes, and these things are part and parcel of any 
building design, but it is a matter of thinking smart about it. 
If it is the private sector, they don't have to rely on ISC, 
but owners who want to make their buildings secure or who want 
to lease out to government might choose to look at some of 
those features.
    Ms. Edwards. Thank you.
    I wonder, Ms. McAvey--and thank you so much for your 
testimony because I think what you highlighted is what I was 
trying to more passionately get to because it is such an 
annoyance to me, which is that government spaces, whether they 
are Federal spaces or State or local spaces, really provide a 
nexus for a broader community and for economic development in 
that community, and for integrating the functions of the 
community with the functions of the facility that is located 
there.
    Has ULI done any research or study of the Washington, D.C., 
metropolitan region to look at those issues?
    Ms. McAvey. We have not specifically looked at where 
Federal facilities are or at the security and the trade-offs.
    I might add, though, in a former life of mine, I was a 
private developer. I worked for a large developer who built 
Bethesda Row. In downtown Bethesda--one of the reasons downtown 
Bethesda has been so successful is that there are 35,000 
daytime workers barely up the street at NIH and in related 
facilities. It is a classic example of why downtown Bethesda is 
so successful. It is not only because there are affluent people 
around, it is also because it doesn't thrive just on evening 
and weekend activities and restaurants. There are daytime 
employees.
    That is true, to varying degrees, in several communities 
around Washington, D.C., and it is critical to the long-term 
health of the communities in areas like Prince George's County 
that want to have sustainable, thriving communities over the 
long term.
    Ms. Edwards. Thank you.
    Lastly, because I know, again, it has been quite a long day 
for all of us, Ms. Hinman, if you could just tell us from a 
structural standpoint whether there is a real advantage to 
either locating a facility, what I like to describe sometimes 
as behind God's back, or these, you know, really tremendous 
setbacks. Can't you achieve the same levels of security even in 
an urban area?
    Ms. Hinman. Well, structurally there is a lot we can do to 
make a building more robust so that it inherently has the 
ability to withstand an assault, such as an explosion, without 
any special fortification. adding redundancy so that, if you 
lose a column, the whole building doesn't fall down; there are 
things like that. So I think that there are materials and there 
are ways of detailing building connections, without hardening, 
that can provide a lot of protection.
    Ms. Edwards. So is there any inherent advantage to the 
different standards offered by DOD in terms of protecting 
facilities from what could be achieved by simply applying the 
GSA standards?
    Ms. Hinman. There are very different criteria.
    I know the ISC criteria a lot better than the UFC, but I 
tend to agree with what has been said here, which is that it is 
more flexible, and it is more sensitive to the urban 
environment. I think it is more practical and cost-efficient, 
and for those reasons, I think it has a lot of benefit to 
offer.
    Ms. Edwards. Thank you.
    Again, thank you to the witnesses for your testimony. Your 
full statements will be included in the record.
    With that, the hearing is adjourned.
    [Whereupon, at 6:00 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6587.038
    
    [GRAPHIC] [TIFF OMITTED] T6587.039
    
    [GRAPHIC] [TIFF OMITTED] T6587.040
    
    [GRAPHIC] [TIFF OMITTED] T6587.041
    
    [GRAPHIC] [TIFF OMITTED] T6587.042
    
    [GRAPHIC] [TIFF OMITTED] T6587.043
    
    [GRAPHIC] [TIFF OMITTED] T6587.044
    
    [GRAPHIC] [TIFF OMITTED] T6587.045
    
    [GRAPHIC] [TIFF OMITTED] T6587.046
    
    [GRAPHIC] [TIFF OMITTED] T6587.047
    
    [GRAPHIC] [TIFF OMITTED] T6587.048
    
    [GRAPHIC] [TIFF OMITTED] T6587.049
    
    [GRAPHIC] [TIFF OMITTED] T6587.050
    
    [GRAPHIC] [TIFF OMITTED] T6587.051
    
    [GRAPHIC] [TIFF OMITTED] T6587.052
    
    [GRAPHIC] [TIFF OMITTED] T6587.053
    
    [GRAPHIC] [TIFF OMITTED] T6587.054
    
    [GRAPHIC] [TIFF OMITTED] T6587.055
    
    [GRAPHIC] [TIFF OMITTED] T6587.056
    
    [GRAPHIC] [TIFF OMITTED] T6587.057
    
    [GRAPHIC] [TIFF OMITTED] T6587.058
    
    [GRAPHIC] [TIFF OMITTED] T6587.059
    
    [GRAPHIC] [TIFF OMITTED] T6587.060
    
    [GRAPHIC] [TIFF OMITTED] T6587.061
    
    [GRAPHIC] [TIFF OMITTED] T6587.062
    
    [GRAPHIC] [TIFF OMITTED] T6587.063
    
    [GRAPHIC] [TIFF OMITTED] T6587.064
    
    [GRAPHIC] [TIFF OMITTED] T6587.065
    
    [GRAPHIC] [TIFF OMITTED] T6587.066
    
    [GRAPHIC] [TIFF OMITTED] T6587.067
    
    [GRAPHIC] [TIFF OMITTED] T6587.068
    
    [GRAPHIC] [TIFF OMITTED] T6587.069
    
    [GRAPHIC] [TIFF OMITTED] T6587.070
    
    [GRAPHIC] [TIFF OMITTED] T6587.071
    
    [GRAPHIC] [TIFF OMITTED] T6587.072
    
    [GRAPHIC] [TIFF OMITTED] T6587.073
    
    [GRAPHIC] [TIFF OMITTED] T6587.074
    
    [GRAPHIC] [TIFF OMITTED] T6587.075
    
    [GRAPHIC] [TIFF OMITTED] T6587.076
    
    [GRAPHIC] [TIFF OMITTED] T6587.077
    
    [GRAPHIC] [TIFF OMITTED] T6587.078
    
    [GRAPHIC] [TIFF OMITTED] T6587.079
    
    [GRAPHIC] [TIFF OMITTED] T6587.080
    
    [GRAPHIC] [TIFF OMITTED] T6587.081
    
    [GRAPHIC] [TIFF OMITTED] T6587.082
    
    [GRAPHIC] [TIFF OMITTED] T6587.083
    
    [GRAPHIC] [TIFF OMITTED] T6587.084
    
    [GRAPHIC] [TIFF OMITTED] T6587.085
    
    [GRAPHIC] [TIFF OMITTED] T6587.086
    
    [GRAPHIC] [TIFF OMITTED] T6587.087
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
